<html>
<title> - THE HIGH PRIORITY PROJECT PROGRAM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                   THE HIGH PRIORITY PROJECT PROGRAM

=======================================================================


                                (111-25)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2009

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



                  U.S. GOVERNMENT PRINTING OFFICE
49-496                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)



                  SUBCOMMITTEE ON HIGHWAYS AND TRANSIT

                   PETER A. DeFAZIO, Oregon, Chairman

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
BOB FILNER, California               THOMAS E. PETRI, Wisconsin
ELLEN O. TAUSCHER, California        HOWARD COBLE, North Carolina
TIM HOLDEN, Pennsylvania             JERRY MORAN, Kansas
BRIAN BAIRD, Washington              GARY G. MILLER, California
MICHAEL E. CAPUANO, Massachusetts    HENRY E. BROWN, Jr., South 
TIMOTHY H. BISHOP, New York          Carolina
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
BRIAN HIGGINS, New York              TODD RUSSELL PLATTS, Pennsylvania
GRACE F. NAPOLITANO, California      BILL SHUSTER, Pennsylvania
DANIEL LIPINSKI, Illinois            JOHN BOOZMAN, Arkansas
MAZIE K. HIRONO, Hawaii              SHELLEY MOORE CAPITO, West 
JASON ALTMIRE, Pennsylvania          Virginia
TIMOTHY J. WALZ, Minnesota           JIM GERLACH, Pennsylvania
HEATH SHULER, North Carolina         MARIO DIAZ-BALART, Florida
MICHAEL A ARCURI, New York           CHARLES W. DENT, Pennsylvania
HARRY E. MITCHELL, Arizona           CONNIE MACK, Florida
CHRISTOPHER P. CARNEY, Pennsylvania  JEAN SCHMIDT, Ohio
STEVE COHEN, Tennessee               CANDICE S. MILLER, Michigan
LAURA A. RICHARDSON, California      MARY FALLIN, Oklahoma
ALBIO SIRES, New Jersey              VERN BUCHANAN, Florida
DONNA F. EDWARDS, Maryland           ROBERT E. LATTA, Ohio
GENE TAYLOR, Mississippi             AARON SCHOCK, Illinois
LEONARD L. BOSWELL, Iowa
RICK LARSEN, Washington
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Blumenauer, Hon. Earl, a Representative in Congress from the 
  State of Oregon................................................     3
Boozman, Hon. John, a Representative in Congress from the State 
  of Arkansas....................................................    19
Brown, Jr., Hon. Henry E., a Representative in Congress from the 
  State of South Carolina........................................    18
Carney, Hon. Christopher P., a Representative in Congress from 
  the State of Pennsylvania......................................    25
Davis, Hon. Geoff, a Representative in Congress from the State of 
  Kentucky.......................................................    28
Degette, Hon. Diana, a Representative in Congress from the State 
  of Colorado....................................................    13
Dent, Hon. Charles W., a Representative in Congress from the 
  State of Pennsylvania..........................................    22
Driehaus, Hon. Steve, a Representative in Congress from the State 
  of Ohio........................................................    30
Edwards, Hon. Donna F., a Representative in Congress from the 
  State of Maryland..............................................    20
Foster, Hon. Bill, a Representative in Congress from the State of 
  Illinois.......................................................    35
Hare, Hon. Phil, a Representative in Congress from the State of 
  Illinois.......................................................    38
Heller, Hon. Dean A., a Representative in Congress from the State 
  of Nevada......................................................     6
Larsen, Hon. Rick A., a Representative in Congress from the State 
  of Washington..................................................     9
Mckeon, Hon. Howard P. `Buck,' a Representative in Congress from 
  the State of California........................................    15
Melacon, Hon. Charlie, a Representative in Congress from the 
  State of Louisiana.............................................    37
Napolitano, Hon. Grace F., a Representative in Congress from the 
  State of California............................................    39
Posey, Hon. Bill, a Representative in Congress from the State of 
  Florida........................................................    11
Schrader, Hon. Kurt, a Representative in Congress from the State 
  of Oregon......................................................    41

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Blumenauer, Hon. Earl, of Oregon.................................    44
Boustany Jr., MD, Hon. Charles, of Louisiana.....................    52
Melancon, Hon. Charlie, of Louisiana.............................    55
Mitchell, Hon. Harry, of Arizona.................................    56
Paul, Hon. Ron, of Texas.........................................    57

                        ADDITIONS TO THE RECORD

California State Assembly, Hon. Charles M. Calderon, Assembly 
  Member, written statement......................................    59
California State Senate, Hon. Ronald S. Calderon, Senator, 
  written statement..............................................    61
City of Downey, California, Brian A. Ragland, P.E., Director of 
  Public Works:

  Letter to Arthur T. Leahy, Chief Executive Officer, Los Angeles 
    County Metropolitan Transportation Authority, regarding the 
    Lakewood Boulevard/Rosemead Boulevard at Telegraph Road 
    Intersection Improvement Project 2009 Metro Call for Projects 
    Funding Application..........................................    63
  Letter to Arthur T. Leahy, Chief Executive Officer, Los Angeles 
    County Metropolitan Transportation Authority, regarding 
    Telegraph Road Traffic Throughput and Safety Enhancements 
    Project 2009 Metro Call for Projects Funding Application.....    64
City of La Puente, California, Hon. Louie A. Lujan, M.Ed., Mayor, 
  letter to Hon. James L. Oberstar, a Representative in Congress 
  from the State of Minnesota regarding the Transportation 
  Reauthorization Request Form...................................    65
City of Norwalk, California, Hon. Cheri Kelley, Mayor:

  Letter to Hon. Grace Napolitano, a Representative in Congress 
    from the State of California, regarding support for 
    alternative fuel expansion buses for Norwalk Transit System..    66
  Letter to Hon. James L. Oberstar, a Representative in Congress 
    from the State of Minnesota and Hon. John L. Mica, a 
    Representative in Congress from the State of Florida, 
    regarding the San Antonio Drive Rehabilitation Project.......    68
  Letter to Hon. James L. Oberstar, a Representative in Congress 
    from the State of Minnesota and Hon. John L. Mica, a 
    Representative in Congress from the State of Florida, 
    regarding the Studebaker Road Rehabilitation Project.........    69
City of Pomona, California, Hon. Elliott Rothman, Mayor, letter 
  to Hon. James L. Oberstar, a Representative in Congress from 
  the State of Minnesota, regarding support for California State 
  Route 71 Freeway Conversion Project............................    70
City of Santa Fe Springs, California, Frederick W. Latham, City 
  Manager, letter to Hon. Grace Napolitano, a Representative in 
  Congress from the State of California, regarding support for 
  the City of Santa Fe Springs' request for Federal 
  Transportation Reauthorization Funds for the Norwalk/Santa Fe 
  Springs Transportation Center Phase II Parking Expansion 
  Project........................................................    71
City of Whittier, California, Hon. Bob Henderson, Mayor, letter 
  to Hon. James L. Oberstar, a Representative in Congress from 
  the State of Minnesota and Hon. John Mica, a Representative in 
  Congress from the State of Florida, regarding support for the 
  Norwalk Boulevard at Whittier Boulevard Realignment and 
  Widening Project...............................................    73
Gateway Cities Council of Governments, Anne M. Bayer, President, 
  Board of Directors:

  Letter to Hon. Grace Napolitano, a Representative in Congress 
    from the State of California, regarding High Priority Project 
    Request for Freeway Corridors Congestion Relief Projects-
    Planning and Environmental Phases............................    75
  Letter to Hon. Grace Napolitano, a Representative in Congress 
    from the State of California, regarding High Priority Project 
    Request for Regional Goods Movement Transportation 
    Coordination.................................................    77
Gateway Cities Council of Governments, Richard R. Powers, 
  Executive Director, letter to Hon. Grace Napolitano, a 
  Representative in Congress from the State of California, 
  regarding High Priority Project Request Environmental Impact 
  Report/Statement...............................................    78
The I-5 Consortium Cities Joint Powers Authority, Michael Mendez, 
  Chairman, letter to Hon. Grace Napolitano, a Representative in 
  Congress from the State of California, regarding High Priority 
  Request for Preparation of the I-5 (from I-605 to I-710) 
  Environmental Impact Report/ Statement.........................    80
San Gabriel Valley Council of Governments, David Spence, 
  President, letter to Hon. James L. Oberstar, a Representative 
  in Congress from the State of Minnesota and Hon. John L. Mica, 
  a Representative in Congress from the State of Florida, 
  regarding support for Foothill Transit's Transportation 
  Authorization Bill request for $30 million to continue the 
  conversion of their bus fleet to cleaner burning alternative 
  fuel buses.....................................................    81
Southern California Association of Governments, Hasan Ikhrata, 
  Chief Executive Officer, letter to Rick Richmond, Chief 
  Executive Officer, Alameda Corridor-East Construction 
  Authority, regarding Alameda Corridor-East Construction 
  Authority Project..............................................    83
Southern California Regional Rail Authority, David R. Solow, 
  Chief Executive Officer, letter to Hon. Grace Napolitano, a 
  Representative in Congress from the State of California........    84
[GRAPHIC] [TIFF OMITTED] 49496.001

[GRAPHIC] [TIFF OMITTED] 49496.002

[GRAPHIC] [TIFF OMITTED] 49496.003

[GRAPHIC] [TIFF OMITTED] 49496.004

[GRAPHIC] [TIFF OMITTED] 49496.005

[GRAPHIC] [TIFF OMITTED] 49496.006

[GRAPHIC] [TIFF OMITTED] 49496.007

[GRAPHIC] [TIFF OMITTED] 49496.008

[GRAPHIC] [TIFF OMITTED] 49496.009



              HEARING ON THE HIGH PRIORITY PROJECT PROGRAM

                              ----------                              


                        Tuesday, April 28, 2009

                   House of Representatives
    Committee on Transportation and Infrastructure,
                      Subcommittee on Highways and Transit,
                                                  Washington, D.C.,
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Peter 
A. DeFazio [chairman of the Committee] presiding.
    Mr. DeFazio. The Subcommittee on Highways and Transit is 
now in session. This hearing today is limited in scope to 
testimony by individual Members on their potential high 
priority projects.
    This is a different approach than has been taken 
historically with high priority projects, first called when I 
came to Congress demonstration projects. They have always had 
some controversial element to them.
    When I was first elected, Ronald Reagan had vetoed the 
Surface Transportation Bill, the Highway Bill. I then was 
allowed the opportunity as a new Member to put in a small 
project to study a needed bridge replacement in my district. 
When I was then meeting with the editors of the largest 
newspaper in my state a few months later, the Oregonian, during 
the inquisition which it was like in those days, they asked 
what does this demonstrate. I said it demonstrates that I 
understand the needs and priorities of my district and that I 
can deliver. They just sort of dropped it at that point.
    That is the key here. Does all wisdom reside in the 
bureaucracy? Should all of the money be allocated either 
through the political appointee, the Secretary of 
Transportation, or through the various State departments of 
transportation, most of which are generally unelected 
bureaucrats with some direction from their legislatures, 
governors, or commissions?
    The firm conclusion that I would come to over the years is 
no. There is room for some designated spending by Members of 
Congress who better understand the needs of their district and 
the degree of attention which those needs have received from 
their State departments of transportation, legislatures, or the 
Federal Department of Transportation bureaucracy.
    However, that is not to say that we want to replicate some 
of the more notable problems in the past. So we have totally 
reformed the process. We are going to make it a transparent 
process.
    Members are going to have to post their requests to the 
Committee on their websites very similarly to what is being 
done in Appropriations. Then after and when we determine what 
allocations will be available to Members, they will probably 
have to revisit and refine those requests. It is unusual in 
that we are moving forward without making allocations to 
individual Members where they can tailor their projects and 
requests into that number, so I do admit it is a bit difficult 
for Members. Then their name will be forever associated with 
those requests when and if these are included in the 
legislation. This is part of a much larger process that is 
moving forward.
    We have done, I think, 27 hearings on reauthorization or 
authorization now. The staff has been drafting for months. They 
reviewed every one of the 108 program expenditures of the 
Department of Transportation. We are going to very 
substantively reduce the number of programs or move, perhaps, 
to a small number of functions to dramatically streamline the 
Department of Transportation bureaucracy and the Federal 
Transportation Administration.
    We are very interested in providing for more prompt project 
delivery; lowering overhead costs; and moving toward a 
practical least-cost designs, solutions, and planning in 
dealing with the major problems that confront our Country. 
Member projects will have to fit into that context. They will 
have to meet our new National priorities. They will have to 
address those concerns to be included in the legislation later.
    This is a process that is ongoing. We have a sense of 
urgency as I have stated previously here. If we do not achieve 
authorization by October 1st for the next Federal fiscal year, 
absent a waiving of all the rules and some significant 
borrowing or appropriation of new funds, our spending--and the 
numbers are moving around a bit--but our spending or investment 
on highways and transit would drop somewhere between 30 and 40 
percent for the next Federal fiscal year.
    That would be a disaster. It would more than offset any 
stimulus effect that came from the earlier legislation this 
year with some transportation spending. So we have a sense of 
urgency.
    Last week Chairman Oberstar and I met with principal 
Democrats on the Senate side to initiate discussions on 
principles and moving forward. We are moving forward with 
drafting and hope to have a bill in the not too distant future 
for public discussion.
    With that, I would turn to my colleague, Mr. Duncan from 
Tennessee.
    Mr. Duncan. Thank you very much, Mr. Chairman.
    On the last Highway Bill, we had three days of hearings in 
which Members came and presented their different projects. I 
see that what you have done this time is scheduled all of these 
Members to be here sort of one at a time. I guess we will have 
to see how that works.
    I do want to welcome our former colleague, Mr. Blumenauer 
back who was such a great Member of this Committee.
    The last Highway Bill was $286 billion. That is a lot of 
money. But when you think about that that was to cover a six 
year period spread over 50 States, then you see that it really 
wasn't enough to meet all the needs that we have.
    Then you think that last year the Government Accountability 
Office came out with a report that said the Pentagon had a $295 
billion cost overrun on just their 72 largest weapons systems. 
Now you think about that. That didn't count how much cost 
overruns in all the thousands of other large, medium, and small 
contracts that they might have had. And that wasn't the total 
cost of those 72 contracts. That was the cost overruns on those 
72 largest weapons systems, $295 billion. It is an astounding 
figure.
    Of course, now we are working on this new Highway Bill. 
Chairman Oberstar and I think both sides on this Committee want 
to try to avoid the two year delay that we had the last time. 
So we have already been having, as Chairman DeFazio said, many 
hearings. Then last week Chairman Oberstar presided over a 
couple of closed door meetings between some of the key people 
involved. So hopefully we are going to move on this in the 
House and do our duty. Then we will see what the Senate does.
    Thank you very much for being here. This is very important 
to this Nation as I have said many times. There is a very 
legitimate Federal or National interest in the work that we do 
on this Subcommittee and in this Full Committee.
    People in Oregon sometimes use the roads in Tennessee and 
vice versa. People in California use the water systems on 
occasion in New York. We all use the airports in the different 
States and the ports and so forth.
    So I am proud to be a Member of this Committee and this 
Subcommittee. I look forward to doing one of the best Highway 
Bills ever. Thank you very much, Mr. Chairman.
    Mr. DeFazio. Thank you.
    With that, I recognize the Chairman of the Full Committee 
for some brief remarks. Chairman Oberstar?
    Mr. Oberstar. Thank you very much. I listened to your 
opening comments, Mr. Chairman, while I was in the anteroom 
meeting with others. I think you summed it up very well. I just 
want to take this time to thank you for that succinct analysis 
of where we are.
    It is serious outlook for the future of the Highway Trust 
Fund. But we are building on the legacy left by all these 
predecessors represented in the portraits ahead of us. They all 
worked hard to lay a good foundation. We are going to build on 
that foundation. We are going to build it together. We are 
going to build a good and strong future for transportation in 
America to move our economy.
    The challenges you laid out are exactly the ones we need to 
address. Today we are going to hear from Members and that is 
exactly what I am going to do. I am going to listen and hear 
what they have to say.
    Mr. DeFazio. Thank you, Mr. Chairman.
    With that, we turn to our colleague Earl Blumenauer who 
used to be an esteemed Member of this important Committee 
before he moved off to other undertakings. Mr. Blumenauer?

STATEMENT OF HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Blumenauer. Thank you. Thank you, Mr. Chairman, Ranking 
Member Duncan, and Chairman Oberstar.
    I would like to think that I am just out now being a one 
person Subcommittee on resources for this Committee, looking 
forward to making sure you have what you need to do your job 
right.
    Mr. Oberstar. If the gentleman yields, an adjunct professor 
member of the Committee.
    Mr. Blumenauer. As you see fit, Mr. Chairman.
    I do deeply appreciate the hard work that this Subcommittee 
and Full Committee has done getting a running start on 
reauthorization. You have had terrific hearings. You have made 
a strong record of support, not just for reauthorization of the 
Surface Transportation Act, but literally for a major rewrite 
of the Bill as is referenced. I strongly urge that you build on 
that record, establishing for the first time a real purpose in 
this Bill.
    I am going to split my testimony, if I could, into two 
parts. I wanted to just talk briefly about the overview and 
then some specific items that I think are consistent with that.
    What you are doing is a critical part of a new vision for 
rebuilding and renewing America. It is not just about 
protecting and optimizing existing transportation 
infrastructure. More than ever before, this is about 
revitalizing the economy and strengthening our communities 
while we protect the planet from global warming.
    Your Committee has already started along this path of 
energy conservation and greenhouse gas reduction. I hope that 
you in the reauthorization will continue to be bold because 
transportation represents 30 percent of our Nation's greenhouse 
gasses. We can't meet our goals without your help.
    I strongly urge that you put the I back into ISTEA, 
intermodalism, having a higher standard in this new vision. As 
you are sorting through this, I hear that you are talking about 
more uniformity. Everybody must plan and deliver for this new 
era. I find that exciting.
    I hope that you will work with us to extract more value 
from the Federal partnership. Provide more statutory guidance 
on cost effective projects and apply it to all transportation 
modes. If it is good enough for light rail lines, it ought to 
be good enough for an interchange.
    I urge that your Committee adjust and harmonize match 
ratios. A formula should not determine the transportation 
solution.
    We must also work together to streamline this process to 
become more performance driven for environmental protection and 
public participation.
    I do want to be your partner on the Ways and Means and 
Budget Committees to make sure you get the resources you need, 
generating more money after you create this new vision and make 
the Federal Government a better partner.
    In pursuit of more resources and for the future, I strongly 
urge that you include in this Bill an expanded pilot project on 
vehicle miles traveled. We have been pioneering that work in 
Oregon. Please help us extend it to all 50 States so that 
together we can design a transportation funding program for the 
future.
    You will receive from me in written testimony emphasis on 
five specific major projects. One is a Columbia River crossing 
which is a huge undertaking combining both Oregon's and 
Washington's resources to cross the Columbia River on the I-5 
corridor, one of the Nation's vital trade routes. Please work 
with us to refine the toll authority and to do a better job 
with not just freight movement but pedestrian, transit, and 
light rail connection from Vancouver to Portland.
    I will be submitting second a request for the Portland-
Milwaukee light rail extension that will continue to build on 
what we think is the best national light rail model to showcase 
not just what light rail does for our region, but what it has 
done nationally.
    Third, I will be submitting legislation--actually 
introducing it this week--that I hope will be incorporated into 
your Bill. It is not just to expand the Portland streetcar 
system, but to literally jumpstart a national movement building 
on the Small Starts Provision that we worked on together in the 
last reauthorization but that the previous Administration 
couldn't figure out quite how to administer. I will be offering 
a bill to expand, refine, and direct it.
    Fourth, I am confident that under your leadership, Mr. 
Chairman and Mr. Chairman, the Bike and Pedestrian Program will 
enter a whole new era through expanding safe routes to school 
and other trail and pedestrian programs. We will have some 
modest suggestions for what might happen for the showcase in 
our region.
    Finally, you will receive a request from me for some 
funding on Portland's Sellwood Bridge, an example of how one 
local government struggles to meet massive regional needs and 
really does not have the resources for something that goes 
beyond its specific jurisdiction.
    I deeply appreciate the hard work that you have done and 
the opportunity to share my thoughts. As I say, I will follow 
up with written testimony about specific projects. But I am 
hopeful that we can work together on the resource side and the 
vision side. You are laying the foundation for one of the most 
important economic and environmental developments beyond just 
transportation. I look forward to working with you. I really 
appreciate the chance to share some thoughts and observations 
today.
    Mr. DeFazio. Thank you, Mr. Blumenauer. I have one very 
quick question because we will try to get caught up and get 
back on schedule. I didn't quite understand your comments about 
the match, when you are talking match not by formula.
    Mr. Blumenauer. I hope that as part of what you are doing, 
there is an opportunity to look at harmonizing match ratios.
    Mr. DeFazio. Oh, I see. I understand.
    Mr. Blumenauer. I am sorry.
    Mr. DeFazio. I missed that.
    Thank you and we will look forward to the details on your 
particular priorities. Obviously, I am quite familiar a number 
of them, being a frequent visitor to the Portland area. I look 
forward to working with you on those.
    Mr. Blumenauer. Thank you very much. I appreciate your 
courtesy.
    Mr. DeFazio. Mr. Chairman, did you have any questions?
    Mr. Oberstar. Thank you, Mr. Chairman. I greatly appreciate 
Mr. Blumenauer who is always a fount of ideas and new 
initiatives.
    We are going to concentrate on cost effectiveness guidance. 
More than that, it is going to be direction for cost 
effectiveness. Performance based, we are going to move from a 
prescriptive program to a performance based program. We are 
going to have more openness, accountability, and visibility as 
we are doing in the Stimulus program. The hearing we will have 
tomorrow will be the precursor.
    But I wanted to come to your suggestion of a pilot program 
for vehicle miles traveled. I have followed the Oregon 
experience very closely. I participated in a demonstration of a 
VMT initiative at the Humphrey Transportation Center at the 
University of Minnesota.
    Why do we need a pilot program? Why don't we just phase 
this in? It is going to be done; it is something we have to do. 
Why not just move it ahead? There are many suggestions that it 
will take five or 10 years. I think it can be done in far less 
than that, maybe two years.
    Mr. Blumenauer. Mr. Chairman, I agree with you. I think we 
are further along both with the technology and the 
understanding that if we don't move to a vehicle miles traveled 
formula, we are locked into an inevitable downward spiral that 
is going to make your job and our job on Ways and Means 
untenable.
    The reason I suggested expanding the pilot project is we 
find that as we have been able to get more people involved, 
they understand and they are more comfortable with it. I think 
the impediment to a national vehicle miles traveled is less 
technological than it is in terms of public perception.
    I sincerely believe that if you would help us with a pilot 
project that could be undertaken on a voluntary basis in every 
State in the Union, we would be able to increase the public 
awareness and comfort. It would hasten the day that we could 
make the transition.
    I have been very pleased with what the reaction has been to 
the pilot project. If you would put this in your 
reauthorization so we could do it in the next couple years 
across America, I think we could build acceptance and awareness 
and refine it.
    Mr. Oberstar. Under other circumstances, I think that would 
be a very good, thoughtful suggestion. But I would prefer to 
have Mr. DeFazio convene a meeting of all the best think tank 
minds--not a hearing but a meeting--and engage both the 
Republican and Democratic sides of the Committee. I would 
prefer to have a discussion, get all the ideas out on the 
table, and work on an implementation program. I am at a point 
of impatience with more studies. Thank you.
    Mr. DeFazio. Thank you. Are there any other Members with 
urgent questions?
    Mr. Blumenauer. I am sorry if I misspoke. I am not talking 
about a study. I am talking about demonstrating in each State 
in the Union how it works, raising the comfort, and answering 
the questions that people have. I agree with you.
    Mr. Oberstar. Pilot is in the category of a study. We need 
an action program.
    Mr. DeFazio. Okay, thank you.
    Next, we have the Honorable Dean Heller.

  STATEMENT OF HON. DEAN HELLER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Heller. Thank you, Mr. Chairman and Members of the 
Committee for the opportunity to spend a few minutes here in 
front of you to discuss some of the needs and merits of Federal 
investment into Nevada's transportation system. Hopefully I 
will make some of your decision making a little bit easier. I 
don't know if I will succeed at that but I will give it a shot.
    Today, perhaps more than ever, Nevada depends on a strong 
transportation system for commerce and mobility to support 
economic stability and job growth.
    The State of Nevada, like other States, counties, and 
communities is currently facing difficult financial deficits. 
Funding for transportation projects is needed to accommodate 
Nevada's rapidly growing population, especially during these 
tough economic times.
    Nevada's transportation programs are facing a severe 
funding shortfall crisis. Our State's highway system needs are 
expected to be $11 billion by 2015. Nevada is currently facing 
a $3.8 billion shortfall for the 10 largest projects planned 
for completion in 2015. Compounding all of this, highway 
construction costs rose 99.7 percent nationally and highway 
construction inflation has risen nearly 44 percent in the past 
few years, far exceeding general inflation.
    As Members of the Committee, you may know that Nevada's 
population exploded from 1950 to 2000, increasing more than 
1,200 percent. Since 1990, Nevada's population grew 133 percent 
with nearly one million new residents, the fastest rate of 
growth in the Nation. Annual vehicle miles traveled on Nevada 
roads exploded from 10 billion miles in 1990 to 22 billion in 
2006. The number is expected to increase to 35 billion vehicle 
miles by 2010.
    Almost every major road leading into and out of both the 
Reno metropolitan area and the Las Vegas Valley area needs to 
increase capacity just to keep up with growth as well as meet 
the demands of tourists traveling in Nevada. Tourism is the 
lifeblood of Nevada's economy. Thirty-nine million people visit 
Las Vegas annually and 53 percent of them arrive by automobile 
or bus on U.S. highways.
    In addition, Interstate 80 and Interstate 15 are among the 
busiest truck freight corridors in the Nation. That traffic is 
expected to increase significantly in the future as the United 
States increases its overseas trading relationships. Increased 
trade will mean more ships arriving in western ports with goods 
that will need to be transported both to and across Nevada and 
to other States.
    Interstate 80 is the lifeline for the city of Reno and 
Sparks and it also goes through the towns of Fernley, Lovelock, 
Winnemucca, Battle Mountain, Elko, Wells, and West Wendover on 
its way through the State. Many of these areas are growing. 
Maintaining and expanding I-80 infrastructure will alleviate 
traffic, improve traffic safety, and help small businesses grow 
in all of these communities.
    These facts demonstrate that Federal funding for surface 
transportation projects is critical to the future of Nevada. 
The Surface Transportation legislation that the Committee is 
currently working on could provide the foundation for 
unprecedented investment in Nevada and throughout the United 
States.
    I stand beside Nevada's communities, counties, and the 
State to provide a top ranked transportation system that 
supports Nevada's economy and mobility in a fiscally, socially, 
and environmentally smart manner. I look forward to working 
with every Member of the Committee on measures that will ensure 
the Federal Government remains a faithful partner in meeting 
the demands of Nevada's rapidly growing transportation system.
    Mr. Chairman, again, thank you for your few moments and 
minutes to express some of the concerns and virtues necessary 
to keep Nevada's transportation system solid.
    Mr. DeFazio. I thank the gentleman. Obviously, your 
testimony very well makes the case that we are dealing with an 
integrated national system. Demand may not originate with 
Nevada but Nevada is dramatically impacted by demand elsewhere. 
I appreciate you making that point.
    Mr. Heller. Mr. Chairman, thank you.
    Mr. DeFazio. Do any other Members of the panel have 
questions? Mr. Duncan?
    Mr. Duncan. Thank you, Mr. Chairman. Thank you, Congressman 
Heller.
    I was interested to hear your testimony because I do know 
of the explosive growth in and around Las Vegas. I read last 
year that two thirds of the counties in the U.S. are losing 
population. That really surprises people in my area. I 
represent the Knoxville area and it happens to be also one of 
the fastest growing parts of the United States.
    We have got to take a lot of that into consideration when 
we do this Highway Bill. On the other hand, I don't want to see 
everybody jammed into 30 or 35 megapolises. So I hope we also 
do what we can for the rural areas.
    But I was interested in your 39 million people coming to 
Las Vegas. I also represent a big portion of the Great Smoky 
Mountains National Park and that is by far the most heavily 
visited National Park. We get three times what any other 
National Park gets, but that still is only a little over nine 
million visitors a year to the Great Smoky Mountains. So that 
39 million is a pretty impressive figure to me. I can 
understand why you are here before us today. Thank you very 
much for your testimony.
    Mr. Heller. Thank you. Thank you, Mr. Chairman.
    Mr. DeFazio. Do any other Members of the Committee wish to 
speak?
    Mr. Oberstar. Mr. Chairman?
    Mr. DeFazio. Mr. Chairman, certainly.
    Mr. Oberstar. I just want to thank our colleague for his 
astounding numbers. Those are rocking numbers: 39 million a 
year with 53 percent by car and bus. I have been to the airport 
at Las Vegas. I have been in and out of it many times. It seems 
every organization in the Country wants to hold a conference in 
Las Vegas.
    Mr. Heller. I hope it continues to be that way, too.
    Mr. Oberstar. You probably want more of them to go to Reno.
    [Laughter.]
    Mr. Oberstar. So I am astounded. Your suggestions of 
investments are well placed.
    We just want to remind each of the witnesses today again of 
standards the Committee has set, that projects have a public 
hearing; have a local sign off; and that you are prepared to 
assure the 80 percent non-State--that is 80 percent Federal--
share of funding for projects, to assure that these projects 
will be completed in the timeframe of the legislation or at 
least substantially underway.
    We have had the situation in years past where Members have 
a $10 million project need. We put $1 million into it and then 
the State says, fine, where are the other $7 million; we will 
put up $2 million. We have seen that happen over the last 18 
years and we want to avoid that for the future. What happens is 
the project is never undertaken and money is then recision bait 
for the Office of Management and Budget or the Appropriations 
Committee instead of that money remaining in the Highway Trust 
Fund and going to transportation projects. As a transportation 
dependent State, you want to see those dollars well used.
    Mr. Heller. I appreciate it, Mr. Oberstar. I will keep 
those criteria in mind as we move forward. Thank you.
    Mr. Oberstar. Thank you.
    Mr. DeFazio. Thank you. If there are no other questions, we 
will move on. Thank you, Mr. Heller.
    Mr. Larsen from my neighboring State of Washington.

  STATEMENT OF HON. RICK LARSEN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Larsen. Thank you, Mr. Chairman, for the opportunity to 
testify before the Subcommittee on behalf of high priority 
project requests. First off, I just want to say I look forward 
to working with you and Chairman Oberstar to make a significant 
investment in our Nation's transportation infrastructure and 
build a foundation for future economic growth as we rewrite the 
Federal Surface Transportation legislation.
    In February, President Obama and Congress took an important 
first step to modernize our roads, bridges, and transit; to 
create jobs; and to help our economy recover by passing the 
economic recovery package. Recovery dollars are already going 
to work in Washington State and in my district.
    In fact, just yesterday the Washington State Department of 
Transportation announced that they had obligated over 50 
percent of their economic recovery funding 51 days ahead of 
schedule. That makes Washington State one of about five or six 
States to obligate that much money.
    In Snohomish County in my district, a project to repave a 
worn-out section of Interstate 5 has already gone out to bid 
and is expected to employ approximately 60 workers during 
construction.
    In Whatcom County, the Whatcom Transportation Authority 
will combine economic recovery dollars with a Federal 
appropriation to buy 11 new buses to help replace their aging 
fleet. Whatcom Transit saw the highest ridership increase in 
the Country last year, so these new buses will help them keep 
up with skyrocketing ridership.
    In Washington State, Recovery projects are addressing 
pressing local needs, creating jobs, and coming in ahead of 
schedule and under budget. Despite these successes, the 
Recovery package only funds a small percentage of the 
investment our Country needs to invest in our aging 
transportation infrastructure.
    In Washington State, our Department of Transportation and 
metropolitan planning organizations selected their Recovery 
projects from a list of hundreds of shovel-ready projects. As 
we write the next Surface Transportation Bill, it is clear that 
our Nation needs a significant investment in our transportation 
infrastructure to modernize our roads, bridges, and transit; to 
create jobs; and to set the foundation for future economic 
growth.
    The top transportation priorities for my district in the 
next authorization are highway safety, freight mobility, and 
ferries. In addition for pushing for specific policy changes to 
the current authorization, I have approached the high priority 
project process with these three issues in mind.
    Highway safety is a top priority for my district. My 
district includes U.S. Highway 2, a stretch of highway where 
there have been over 50 fatal accidents since 1999. The 
communities along this 50 mile span of U.S. 2 and the 
Washington State Department of Transportation have partnered to 
implement safety improvement projects throughout the corridor. 
The U.S. 2 Route Development Plan, or RDP, has identified over 
$1 billion in projects to enhance and reduce congestion on U.S. 
2.
    In the next authorization, one of my priority project 
requests is a $10 million project to construct safety 
improvement projects in this corridor between the cities of 
Snohomish and Gold Bar. This highly traveled corridor 
experiences a large number of accidents. A key priority among 
the possible projects is the intersection of U.S. 2 and 
Bickford Avenue. This location has experienced a significant 
number of collisions in the last five years and was identified 
as one of the highest rated projects on the U.S. 2 Route 
Development Plan.
    Freight mobility is a priority for my district and for 
Washington State. In 2007, Washington State freight systems 
supported over one million jobs in freight dependent industry 
sectors. Washington State's transportation infrastructure 
including our northern border crossings; Interstate 5; the 
Burlington Northern Santa Fe and Union Pacific rail lines; the 
ports of Everett, Seattle, and Tacoma; and all of our 
intermodal connectors are all critical in supporting the 
movement of freight.
    I intend to request a high priority project in my district 
to help freight move safely and efficiently across the U.S.-
Canadian border. The Blaine Freight and Passenger Rail 
Improvement Project will construct additional rail line 
capacity to keep the import and export of freight to and from 
Canada moving efficiently. It also provides additional siding 
track to allow for safer inspection of freight traffic coming 
into the U.S. at the U.S. Customs and Border Protection 
facility. This additional siding track has the added advantage 
of allowing freight train inspections to occur off the main 
line, helping to ensure that Amtrak Cascades passenger trains 
operate on time.
    Ferries are an important top priority for my district and 
Washington State. The Washington State ferry system is the 
largest system in the U.S. It carries over 25 million riders 
annually. They are an integral part to our transportation 
infrastructure of Washington State. They are an extension of 
the highway system and provide public transportation to help 
thousands of my constituents get to work and to return home.
    I intend to request project funding for the Anacortes 
multi-modal ferry terminal in my district. Washington State 
ferries provide the only public transportation access to 
several of the San Juan islands and all these routes depart 
from the Anacortes ferry terminal. This project will replace 
existing terminal buildings and five spans of the passenger 
overhead loading system. It will also pave terminal access 
lanes and parking lots.
    I would also encourage the Subcommittee to improve and 
expand the overall Federal investment in ferry transportation. 
Tomorrow Senator Murray and I will introduce the U.S. Ferry 
Systems Investment Act of 2009. Our legislation would make a 
more robust investment in the Federal Ferry Boat Program. It 
would also mandate that half of those funds be distributed by 
formula to help ensure that significant funding is directed to 
the largest and most important public ferry systems. Half of 
the funding as well would continue to be distributed on a 
discretionary basis, which would help initiate and expand ferry 
services throughout the country. I believe these changes would 
significantly improve the current program and provide our 
Nation's ferry systems with the resources they need to improve 
public safety, meet growing demand, and create jobs to keep our 
economy moving.
    Mr. Chairman, thank you for this opportunity to present my 
project requests for the next Surface Transportation 
Authorization. I look forward to continuing to work with you 
and the rest of the Subcommittee to invest in our Nation's 
transportation infrastructure and set the foundation for future 
economic growth.
    Mr. DeFazio. I thank the gentleman. Thank you for pointing 
out the intermodal needs with ferries, the border problems, and 
freight movement.
    I thought the number you gave on Highway 2. The total need 
for that one highway in one State is $1 billion. That just 
underlines how huge the unmet needs are nationally. We see that 
every year in the American Society for Civil Engineers and we 
have seen other folks. The commissions quantify it, but when 
you reduce it down to just one highway in one State and put out 
those numbers, we realize that we need a tremendous amount more 
investment.
    Mr. Duncan, do you have any questions?
    Mr. Duncan. I have no questions, but I want to thank our 
colleague, Congressman Larsen, for being here. I have been out 
to his district several times over the years and in the 
vicinity to visit the Boeing operation and some other things. I 
know the projects he is talking about are very, very important. 
So I thank you for taking this time to come here and be with us 
today. Thank you.
    Mr. Larsen. Thank you, Mr. Duncan.
    Mr. DeFazio. Thank you. Do any other Members have 
questions? If not, then we will move on. Thank you, Mr. Larsen.
    We move to the Honorable Bill Posey.

STATEMENT OF HON. BILL POSEY, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF FLORIDA

    Mr. Posey. Thank you, Chairman DeFazio and Ranking Member 
Duncan, for the opportunity to come before you and share with 
you some of the needs for east central Florida.
    There are several transportation products that are 
important to east central Florida. I will use my time here this 
morning to share with you three of the highest priorities. 
These projects meet the qualifications for the Committee and 
each is high on the list of the local metropolitan planning 
organizations. Later this week, I will be submitting all of the 
data and support letters that the Committee has requested.
    First, I would like to ask the Committee to consider 
providing funding for the Palm Bay Parkway. The Palm Bay 
Parkway is well underway with planning by Brevard County, the 
city of Palm Bay, the city of Melbourne, and the Melbourne 
Airport Authority in full concert. The funding will help speed 
this project along, obviously.
    The Palm Bay Parkway was conceived in the 1990s to address 
regional mobility needs in southern Brevard County and northern 
Indian River County, to alleviate congestion on all major 
parallel roads including I-95, to improve access to Melbourne 
International Airport and the major employers near the airport, 
and to enhance public safety by providing additional evacuation 
capability for significant populations within limited 
evacuation options. The Palm Bay Parkway will aid in hurricane 
evacuations, obviously.
    The Palm Bay Parkway has been in planning for more than 15 
years and is now moving forward. The general public and elected 
officials are very much aware of the need for the Parkway and 
actions are being taken to move this project forward. The 
potential to create new construction, commercial and service 
jobs, and residential neighborhoods on the property transverse 
the Parkway is substantial.
    The Parkway consists of two interchanges along I-95. It 
will provide a western loop around the city of Palm Bay, 
connecting both the northern end of Palm Bay to the north end 
of near Melbourne and the Melbourne International Airport.
    In 2007, Brevard County commissioners issued a revenue bond 
which raised an estimated $21 million. Over 40 percent of the 
bonds' proceeds were allocated to the Parkway.
    Second, citizens in Indian River County have several 
projects that are important to improving traffic flow in and 
around the county. While one of these projects is new 
construction, the others add more lanes to already existing 
roads. I will be submitting funding requests on their behalf 
later also.
    Finally, I would ask the Committee to give consideration to 
providing funds for the Hoagland Boulevard/Pleasant Hill Road. 
That is in Osceola County. It is a corridor of a 3.8 mile 
roadway connecting two State highways, U.S. 192 and U.S. 1792. 
The project is an important link in the regional transportation 
network in central Florida. It provides direct access to 
Kissimmee Gateway Park and airport and to designated enterprise 
zones critical to economic development in Osceola County.
    Osceola County and the city of Kissimmee have jointly 
completed preliminary engineering and alignment analyses for 
the project as of last December.
    Again, thank you for the opportunity to come before you. My 
staff and I are looking forward to working with you to meet our 
Nation's infrastructure needs.
    Mr. DeFazio. Thank you for the testimony. The gentleman 
makes a good case regarding how what would seem to be a local 
project has tremendous economic development and, again in 
dealing with airports, intermodal implications. I appreciate 
your highlighting those factors to the Committee. Thank you.
    Mr. Duncan?
    Mr. Duncan. Thank you, Mr. Chairman. I want to thank our 
colleague, Congressman Posey, for being here to present what I 
know are great needs. I am familiar with his part of Florida. 
There has been such a population explosion over the last 25 or 
30 years all through Florida so I know there are a lot of needs 
down there.
    Congressman Posey is a new Member, but he has already 
gotten off to a great start in becoming a very effective Member 
for his district. I appreciate your being here with us today. 
Thank you very much.
    Mr. Posey. I know the days are long and you have a lot of 
people coming before you. I can't tell you how much I 
appreciate your courtesy and your attention. Thank you.
    Mr. DeFazio. Brevity is appreciated and will be rewarded. 
Thank you.
    Ms. DeGette, the Honorable Diana DeGette from Colorado?

 STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Ms. Degette. Thank you so much, Mr. Chairman, Mr. Duncan, 
and Members of the Committee. I thought I would come down today 
and update you on a couple of exciting transportation 
developments going on in the Denver metropolitan area.
    Some of you were in Denver last summer and you saw the 
historic Union Station development, which is a multi-modal 
development. It is very exciting because it is in the core of 
my district, in the core of Denver. It is an historic train 
station that is being rethought to be the transportation hub, 
not just for rail, but also for light rail, for a hard rail 
system out to the airport, and for and many other projects. 
This is a personal favorite of Chairman Oberstar's, I know, and 
I am excited about it. It really helps cement Denver as the 
national model to how to complete major transportation 
projects.
    The second thing I would like to talk about this morning is 
the expansion of light rail throughout the metropolitan Denver 
area in a project known as FasTracks.
    Mr. Chairman, all of these projects have been on time, 
under budget, and maybe most importantly they have had the full 
support of all of the voters in the regional area. That has 
helped us tremendously in building out this entire project.
    With respect to Union Station, Union Station is going to be 
the core of Denver's FasTracks program. It is going to connect 
downtown Denver by light rail and commuter rail to the suburbs 
in all four directions. Also there is enhanced bus service, 
Amtrak accessibility, and pedestrian and bicycle options with 
Union Station.
    In the last transportation reauthorization, the Committee 
wisely named Union Station as a project of regional and 
national significance. What we are looking at doing right now, 
one of our top priorities, is developing out the connection 
between Union Station to Denver International Airport. Those of 
you who have flown into DIA know that the airport is some 
distance away from the city center and so having a viable 
public transportation option will really be helpful.
    Turning to the FasTracks program, that program is six light 
rail and commuter rail lines. It was approved by the voters. It 
is one of the top priorities of the business community. It is 
really a good example of what a lot of western cities--not just 
Denver but Portland and other cities--are doing as well because 
it is moving into all of the suburbs which are developing, 
albeit at a smaller pace with the economy.
    So the FasTracks build-out that we still need to do is 
going to include 18 miles of bus rapid transit and 21,000 new 
parking spaces. It is going to serve 91 percent of the 
households in the metropolitan areas.
    We do have a couple of problems with the FasTracks funding 
that I think are probably shared by every single light rail 
program in the Country. Soaring commodity prices last year sent 
the costs through the roof. That was a real problem for the 
RTD, the Regional Transportation District, in meeting its 
budget. Oil, concrete, steel, and copper reached record level 
prices.
    RTD underwent cost containment measures, including design 
changes in some areas and some innovative public/private 
partnerships in other areas. But what basically has happened is 
the increase in commodity prices last year has slowed the 
build-out of the project. One of the effects of the economic 
downturn is those commodities are also going down, so that may 
help in the future.
    So in closing, I would just want to thank the Committee for 
its great commitment to these projects over the years. I urge 
you to consider continuing with these two projects in the days 
ahead. Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentlewoman for her testimony. As 
she points out, the Federal Government has been partnering with 
your community in achieving some tremendous success in 
intermodal transit. This airport connection is very exciting. I 
look forward to the day when we might experience that.
    We really like the ``on time, under budget'' part. Perhaps 
there is something to be learned there either by the Federal 
Transit Administration or by other agencies. We will 
investigate some of how you were able to pull off that miracle.
    Mr. Duncan?
    Mr. Duncan. Thank you, Mr. Chairman. I was also going to 
mention that we love to hear those words, ``on time and under 
budget,'' because we get into all these projects where there 
are problems. In fact, I remember years ago when I was chairing 
the Aviation Subcommittee, we had a big hearing one time about 
the Denver Airport and some of the problems that you were 
having at that time.
    I know there is a lot of need. I was visited and I am sure 
the Chairman was visited by a group from Boulder to discuss the 
transportation needs between Denver and Boulder.
    Thank you very much for being with us.
    Ms. Degette. I was telling someone yesterday that though 
the baggage system has been worked out now for about 15 years 
in Denver, people still ask me if their luggage is going to get 
lost. The baggage system works great and it is all working. 
Thank you very much.
    Mr. Duncan. Thank you.
    Mr. DeFazio. Does anybody else have any questions? Yes?
    Mrs. Miller of Michigan. If I could, really quickly? You 
were talking about the intermodal system that you are doing out 
there. I haven't had an opportunity to be there in several 
years. Is part of that a high speed bus with a dedicated bus 
lane? Is there anything with the bus system out there that you 
are improving as well as this?
    Ms. Degette. A high speed bus is not a part of that 
particular program, although as part of the whole build-out of 
FasTracks we have dedicated HOV lanes. Of course, buses use 
those lanes as well.
    But the bus system, which was the traditional public 
transportation system in the Denver metropolitan area, is being 
incorporated into this light rail system that we have in 
addition to the bike lanes and the commuter lanes and all of 
that so that it all works together. That is always a help in 
these situations.
    Mrs. Miller of Michigan. I see. Very good. Thank you.
    Ms. Degette. Thank you very much.
    Mr. DeFazio. Thank you.
    The next is the Honorable Buck McKeon. He is running a 
couple of minutes late so we will go into a brief recess. My 
colleague, Mr. Sires will take the Chair upon his arrival. With 
that we stand in indefinite, short term recess and will take 
Mr. Boozman next.
    [Recess.]
    Mr. Sires. [Presiding] The Honorable Congressman McKeon, 
any time you are ready?

STATEMENT OF HON. HOWARD P. `BUCK` MCKEON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McKeon. Thank you, Mr. Chairman, for the opportunity to 
testify on one of the most important California transportation 
projects: improvements to Interstate 5.
    Interstate 5 is one of the most regionally significant 
transportation corridors and goods movement arteries in 
California, perhaps in the Country. You can see on the map that 
I have here the portion there that is blown up. Here, Santa 
Clarita, is where I live.
    Interstate 5 goes from Washington down to the border. It is 
a very important part of the interstate project that was built 
in the 1950s. The I-5 is absolutely vital for efficient goods 
movements from the ports of Long Beach and Los Angeles to 
destinations in California, Oregon, Utah, and Washington. 
Moreover, the I-5 is an essential international trade artery 
connecting the west coast industry with Canada and Mexico.
    We are often tragically reminded of the importance of this 
freeway and the goods movement it facilitates after a disaster 
such as the seismic event in 1994, the Northridge earthquake. 
It shut down, right in here, it shut down all of the bridges 
coming north and south from Route 14 and from the I-5. There 
was really no other major way to get through.
    They did a great job of rebuilding. In fact, what they did 
was everybody worked together. They had three major bridges 
there to build to put that back together. They worked night and 
day and had it done in six months. We paid a bonus to the 
workers and did it cheaper than the normal process would have 
been. In six months they wouldn't have even had the building 
permits. But still, it is a major weakness that we have there 
at that point.
    Playing such a prominent role, this nationally designated 
high priority corridor faces some significant challenges. 
Despite the nearly unanimous community support, the sheer size, 
scope, and cost of the Gateway Improvement Project pose 
significant obstacles. Even with a robust Federal investment, 
such a project will require unprecedented collaboration of 
effort and resources from all efforts and sectors. That is why 
I am asking this Committee to support the Santa Clarita-Los 
Angeles Gateway Improvement Project.
    This project will help relieve congestion along one of the 
most heavily traveled portions of the I-5, which currently 
experiences 48,000 daily hours of delay that costs motorists 
$204 million a year. I live right here. This picture is going 
south. Here there is a mountain pass.
    I have to leave for the airport when I am coming back early 
in the morning at about 4:30 a.m. Then I can get to the airport 
for my 7:50 a.m. flight. If I leave 15 minutes later, it takes 
about an hour longer. It is amazing what that happens.
    It will also reduce a mixing of commercial trucking and 
passenger vehicles. Trucks are supposed to take about one lane 
but they take two. There are only four lanes through there so 
it just backs up for miles.
    Moreover, the improvements in efficiency are projected to 
increase air quality by almost 50 percent. The Santa Clarita-
Los Angeles Gateway Improvement Project will accomplish this 
task through two major enhancements.
    I grew up down here in the San Fernando Valley area. We 
have always had bad air quality down in the LA basin but when I 
moved out to Santa Clarita over 40 years ago, there was no 
problem with the air. Now it is sometimes worse than in the LA 
basin. A lot of it is because of that traffic that can't get 
over the mountain and down below.
    The Santa Clarita-Los Angeles Gateway Improvement Project 
will accomplish this task through two major improvements, as I 
said. First the project will extend existing high occupancy 
vehicle, HOV, lanes for several miles along I-5. Second, it 
will incorporate dedicated truck climbing lanes along steeper 
portions of the freeway.
    The HOV lanes will provide badly needed efficiency at peak 
times for this key stretch of highway that serves as a gateway 
to and from the Los Angeles community for thousands of 
commuters every day. We have people that are driving from clear 
up in here down into this basin every day. I have seen Route 14 
backed up for miles and miles in the morning. It is amazing. 
The HOV lanes would extend from the Route 14 interchange to 
Parker Road, a key stretch of highway badly in need of 
increased capacity.
    The other aspect of the project is the incorporation of 
dedicated truck lanes from Route 14 to Pico Canyon Road and 
Lyons Avenue. As truck volumes continue to increase along a 
path that is projected to double by 2030, the I-5 truck lanes 
will dramatically improve the flow of goods movement in the 
corridor, regionally, and internationally. This will help to 
keep America's ports competitive with new ports in Mexico and 
Canada. In Southern California, this goods movement represents 
a direct economic impact of more than $90 billion in economic 
activity. It supports 690,000 jobs.
    The importance of this project is strikingly evident by the 
overwhelming local support from the communities that depend on 
the I-5 from industry, local government, and private citizens. 
Several key businesses have joined together to support this. 
Members of our delegation have joined together to support it. 
Even the California Department of Transportation, Caltrans, and 
the Metropolitan Transit Authority--which have numerous high 
priority projects--have placed an increased urgency on 
improvements to this I-5 corridor.
    So in closing I would ask this Committee to make an 
investment not only in the future of the Santa Clarita Valley 
but in the future of California by supporting my request for 
the Gateway Improvement Project. This is something that, 
because of the regional status, is too big really for just the 
local people here. They have put up a lot of money and they are 
willing to match as much as they can. But the State of 
California, the Governor, has shown that $222 billion of 
projects are needed in the State. So the State is also going to 
need help to make this happen. Thank you very much.
    Mr. Sires. Thank you, Congressman McKeon.
    Congressman Duncan, do you have a question?
    Mr. Duncan. I don't have any questions. But I will say that 
the most recent study that has come out says that we lose at 
least $78 billion a year just due to congestion, people sitting 
in traffic. I am sure a significant part of that must come from 
that Southern California area. I know I have been visited and I 
am sure Chairman DeFazio and Chairman Oberstar have been 
visited by a couple of groups from Southern California already 
to talk about the great needs that are out there. I think all 
of us or most of us have probably been on Interstate 5 and are 
a little bit familiar with the needs out there.
    I do remember, though, many years ago I went on the 
Congressional plane with the big delegation to go to former 
President Nixon's funeral. They had a couple of buses for us 
when we landed and we were on I-5. It was just totally empty. I 
said to Congressman Gallegly, where is all that traffic you all 
are always complaining about out here? I said, there is not a 
car on this road. What it was was that they had the entrances 
and exits all blocked off for us so we could get to that 
funeral. So I did get to ride on it one time when there wasn't 
a car in sight.
    Mr. McKeon. It was the same thing when we had that 1994 
earthquake. President Clinton came out and the same thing 
happened. We got on that freeway and I had never seen anything 
like that before. It was like an airport runway. But that is a 
very rare occurrence. We were making a lot of people mad that 
were sitting on the side streets that wanted to get on those 
freeways.
    Mr. Duncan. You did mention one other important thing, 
though, that we need to consider in this bill. It seems that 
when we give incentive bonus type contracts out that work is 
done much more quickly and everybody is happier.
    Mr. McKeon. That is something. I don't know how you do that 
in a bill like this but if there is something that can be done 
to cause that kind of incentive, I think we could get a lot 
more bang for our buck.
    Mr. Duncan. Thank you very much.
    Mr. Sires. Does anyone else have anything to add?
    Congressman, I can't see it from here. Is that downtown Los 
Angeles where it goes right through, Interstate 5?
    Mr. McKeon. This is I-5.
    Mr. Sires. But on the bigger picture there?
    Mr. McKeon. This is Interstate 5.
    Mr. Sires. That goes right through downtown Los Angeles? Is 
that what I see on the bottom there?
    Mr. McKeon. Right. This is this and here is Los Angeles. It 
does go all the way through, all the way down to the border and 
all the way north to Canada.
    This was built, remember, as part of the construction of 
the freeway system when Eisenhower was President and did the 
interstate transit. It was built for defense purposes so that 
we could get people from one part of the Country to another 
quickly.
    Eisenhower, after World War I, was sent--you all know, I am 
sure, the story--he was sent with others to go across the 
Country. In those days, they had mules and they had very 
inadequate equipment. He said it took him months to get across 
the Country. Some days they maybe could only go a mile or so a 
day. He remembered that. So when he became President, that was 
the motivation to do the interstate transportation system.
    I think it is time now that we really upgrade it and bring 
it into the 21st century.
    Mr. Sires. Thank you, Congressman.
    Mr. McKeon. Thank you.
    Mr. Sires. Mr. Brown, would you like to begin?

  STATEMENT OF HON. HENRY E. BROWN, JR., A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Brown of South Carolina. Thank you, Mr. Chairman. I 
know this has kind of come at short notice but I appreciate the 
opportunity to serve on this Committee. This has been my 9th 
year.
    Back in the last reauthorization bill, TEA-LU, we were able 
to get an interstate system into South Carolina designated as a 
high priority. We were able to get some funding at that time to 
get the design, the right-of-way, some of the environmental 
impact statements, and these preliminary things out of the way.
    As we look at this reauthorization bill, I would hope that 
we would become a little bit more innovative in our process. I 
know that we really haven't looked at the overall highway 
system--I know Buck alluded to it earlier--since Eisenhower, 
back in the 1950s. So I think we need to go back and revisit 
some of the corridors that were missed back in the 1950s and to 
go back and readdress those.
    I know we all talk about the lost hours and lost energy in 
delay time on our road systems. In fact, I heard somebody today 
say something like 50 tankers a year of fuel is consumed just 
in delay on the highways.
    I would like to talk just a little bit about I-73. It 
starts up in Michigan and comes down through the other States 
into South Carolina. It comes into Myrtle Beach. Myrtle Beach 
is a destination of choice for around 14 million tourists a 
year. It doesn't have anything but secondary roads. So we are 
looking for some relief for that congestion coming into that 
region. The total project cost would be about $2 billion for 
the Federal share. We would like to certainly hope that this 
project would be one of the projects that would be looked at as 
we revisit the interstate system.
    I would hope that this Committee would take a longer look 
at not only just I-73 in South Carolina but the other corridors 
that need to be addressed as the population shifts from the 
Northeast down to the Southeast and also to the Midwest. My 
petition would be to take another look at I-73 and try to get 
some additional funding to complete this system plus the other 
corridors that are necessary throughout the Nation.
    Another thing I would like to see us do is to make it, I 
guess, easier to build highways. I know that we built Cooper 
River Bridge, which we named for Arthur Ravenel, under design-
build method. It came in under budget and also under time. So I 
would hope that somehow we could incorporate some language in 
this reauthorization bill to allow for other types of 
construction rather than just the normal process which we go 
through as we build our highways. I think the design-build 
method certainly would be something that I would like to see us 
implement.
    Mr. Chairman, with that I will just yield back the balance 
of my time and entertain any questions.
    Mr. Sires. Thank you, Mr. Brown. Does anyone have a 
question? Thank you very much.
    Mr. Brown of South Carolina. Thank you.
    Mr. Sires. Mr. Boozman, welcome.

 STATEMENT OF HON. JOHN BOOZMAN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARKANSAS

    Mr. Boozman. Thank you, Mr. Chairman, for allowing me to 
have the opportunity to testify today. I have been on the 
Transportation Committee since I arrived in Congress and it 
really has been an honor to serve with all of you.
    I am here talking about the I-49 highway. This highway, 
once complete, would run from New Orleans to Kansas City, up 
through and all the way to Canada. It would provide a route all 
the way from the Canadian border down to the port of New 
Orleans.
    I have Vanna and her assistant here to help us. As you can 
see, most of our interstate system is built east and west. 
There are very few north-south corridors.
    This system is one of those that is almost constructed. 
Major portions of the route are already constructed in 
Louisiana, from Lafayette to Shreveport, as well as other 
sections in Arkansas and Missouri. But with the completion of 
the Missouri portion, which is a small stretch here, we will 
have interstate all the way from the western portion of 
Arkansas all the way to the Minnesota border. We have a section 
in Arkansas that needs to be completed and a little bit in 
Missouri.
    Myself and Mike Ross have been working hard on this and 
right now we have records of decision for the sections that 
will be signed by the Federal Highway Administration. 
Construction funding is really the remaining obstacle to 
completion of the interstate.
    Construction and completion of I-49 will support the 
creation of up to 206,290 new jobs. Once complete, I-49 will 
provide more than $817 million in annual savings to the 
Nation's economy by reducing travel time, transportation costs, 
and congestion. Over six years, these savings will total over 
$4.9 billion or more. The total cost to construct I-49 is 
estimated at just over $4 billion.
    It is a significant freight distribution, intermodal 
corridor that will service the deep water ports of south 
Louisiana, New Orleans, Houston, Beaumont--four of the top five 
ports in the Nation by tonnage--as well as the Great Lakes 
ports of Duluth-Superior, Chicago, Gary, and Milwaukee and one 
of the Nation's most important freight distribution hubs, 
Kansas City. So again, I think as you can tell this really is a 
very, very important project. It is something that many of us 
have been working on for several years.
    The good news is that we have had significant funding in 
the past. We had significant funding in the last 
reauthorization. We will be working, hopefully with your help, 
to acquire more funding.
    I want to echo, I think, what the previous speakers have 
been talking about in the sense of identifying areas of 
National priority. I think with the limited funding that we are 
going to have with the next reauthorization that we really do 
need to look back towards the Eisenhower years when we created 
the interstate system. I think that with limited funding that 
we really do need to address areas that have significant 
congestion--those are scattered out throughout the United 
States--and to use the funding that we have to most 
advantageous way that we can.
    So I would ask that the Committee look at this very, very 
hard. I would ask for support from the Committee as we go 
forward with reauthorization. Thank you very much. I yield 
back.
    Mr. Sires. Thank you, Mr. Boozman. Does anyone have a 
question for Mr. Boozman? Thank you very much.
    Welcome Ms. Edwards.

    STATEMENT OF HON. DONNA F. EDWARDS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Ms. Edwards of Maryland. Thank you. Good morning, Mr. 
Chairman. I really appreciate the opportunity to be here today 
to discuss a specific high priority request in the 4th 
Congressional district in Maryland. I am a Member of the 
Transportation and Infrastructure Committee, a new one, and 
this Subcommittee.
    I think it is important for me to be on the record to 
discuss a couple of projects in my district. You will notice 
that they are related because I believe in a systems approach 
to developing transportation so that it works for an entire 
corridor. These represent only a few of the projects, 
obviously, that are a priority in our State and our district 
but that would be of great importance to this Committee as we 
are thinking about how to develop infrastructure in a systemic 
way.
    I began to be a champion about 10 years ago for rail over 
the Wilson Bridge to improve the I-95 corridor moving 
commercial traffic as well as commuter traffic in this 
district. This Committee put a lot of money into rebuilding the 
Nation's only Federal bridge. It is designed for rail but rail 
is not there, so it is the final piece of the puzzle for the 
Wilson Bridge.
    It serves Maryland, D.C., and Virginia but the entire I-95 
corridor extends from Maine down to Florida and beyond.
    In fact, I think right now we also have business, for 
example, at the Pentagon and Andrews Air Force Base. If one 
wanted to get from the Pentagon onto Andrews Air Force Base, 
public transportation is definitely not the way to do it 
because you could spend hours going from bus to bus to bus to 
Metro. Rail across the Wilson Bridge would actually connect the 
Pentagon, the National Airport, and important development 
corridors in addition to Andrews Air Force Base. So you can 
see, Mr. Chairman, how that would be an important project for 
us, really improving the capacity and the mobility along the I-
95 corridor.
    The first step to getting rail over the Bridge is to 
analyze the transit options for the Bridge. The analysis will 
only cost $1 million and will help get us one step closer to 
rail over the Bridge. The Capital Beltway South Side Mobility 
Study, published in February 2009, confirmed that a demand 
exists for alternative options for the Bridge, including 
transit. A furthering of this study would help us get further 
down the field.
    I believe, as you can hear, that it is really important for 
us to invest in rail as a component of our Nation's 
infrastructure.
    I assume that many of us have been reading the Washington 
Post, our paper of jurisdiction here, about the Purple Line. It 
is a proposed 16 mile light rail or bus rapid transit line in 
the State of Maryland along suburban Washington, D.C. that 
extends from Bethesda to New Carrollton in Prince George's 
County.
    This is important because it says to us, we are going to 
build around and connect communities by rail instead of 
continuing these sort of spokes of road traffic, thereby taking 
congestion off of our roadways and improving our environment. 
So I believe that we have to make a significant investment in 
rail in the Purple Line.
    We are already well down the track with environmental 
analyses and impact statements. The Maryland Department of 
Transportation is preparing a recommendation for a local 
alternative for the alignment. Everybody is on the same page 
about the direction we need to go with this project. 
Authorization of it will have a really tremendous impact in my 
distract.
    Then, as well, we support reauthorizing BRAC-related 
improvements that are important in that Andrews Air Force Base 
corridor that I spoke of, connecting the employees of Andrews 
as well as all of the communities and the businesses that are 
served at this important facility. It will improving the 
economic development prospects as well. I believe that 
transportation should be a hub for economic development, as it 
would for the BRAC-related improvements. The roads leading up 
there are not quite complete yet and it is important to get 
that on the table.
    Lastly is the Corridor Cities Transit Project. Again, there 
is a connection with each one of these projects for economic 
development, environmental investment, and investment in the 
Nation's 21st century infrastructure. This is a 13.5 mile light 
rail or bus rapid transit line in Montgomery County down 
through Rockville, connecting through with our development 
along the Purple Line and rail on the Wilson Bridge.
    So we envision a fully invested and robust transportation 
corridor in the Washington metropolitan area that serves so 
many of our Federal buildings and facilities and Federal 
infrastructure. The study is already being conducted by the 
Maryland Department of Transportation. The project really would 
have a tremendous, important impact in this community.
    I thank you, Mr. Chairman, for my testimony. I will make 
certain to submit something very complete for the record. I 
look forward to working with this Subcommittee on these 
projects. Thank you.
    Mr. Sires. Thank you, Ms. Edwards. Does anyone have a 
question? Thank you very much.
    Mr. Boccieri. [Presiding] Good morning. This is Congressman 
Boccieri from Ohio's 16th district. It is an honor to Chair 
this. Congressman Oberstar said don't get too comfortable here.
    But nonetheless we wanted to have the opportunity to 
recognize the Honorable Charlie Dent from Pennyslvania to 
discuss his projects with respect to the Transportation 
Committee.

STATEMENT OF HON. CHARLES W. DENT, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF PENNSYLVANIA

    Mr. Dent. Thank you, Mr. Chairman. I appreciate this 
opportunity to share with the Subcommittee some of the 
transportation needs of my commonwealth and Pennsylvania as 
well as my district, the 15th district, which includes the 
Lehigh Valley and parts of the upper Perkiomen Valley into 
Montgomery and Berks Counties. There are a few things I wanted 
to say. I have organized my projects in a way that deal our 
high priority projects, bridge projects, safety projects, and 
transit as well as some other projects and long range 
initiatives.
    The first thing is that Pennsylvania is a State where we 
have a large number of structurally deficient bridges, perhaps 
more than nearly any other State. There may be one or two with 
as many or more, but we are near the top of the list. Bridges 
have been a longstanding issue for us and we are feeling a 
great deal of pressure to make some very significant 
improvements in that regard.
    With respect to high priority projects, one project that I 
am heavily involved with and our regional planners are involved 
with, as is our commonwealth, is what we call the American 
Parkway Project, a bridge over the Lehigh River connecting the 
American Parkway on both east and west sides of the east and 
west banks of the River. This would connect Route 22, a major 
artery in my Congressional district, with center city downtown 
Allentown, giving us a north-south connector that we very 
desperately need. We have strong east-west connectors but we 
are in need of a very strong north-south connector in the city 
of Allentown to open it up for more economic development 
initiatives. This would be a very significant project for our 
area.
    For this project, the final cost estimates are somewhere 
between $60 and $70 million. A great deal of funding for the 
project has already been secured. I intend to use my position 
to help advance that particular project even further. Again, it 
is the American Parkway Project, a bridge over Lehigh River.
    The other initiative that is also very significant is the 
Route 22 renovations, particularly between 15th Street and 
Airport Road. This is one of the more heavily congested 
highways in America. Again, it is a road that really connects 
western Lehigh County just west of Allentown to the eastern 
area which straddles the New Jersey State line.
    This highway just sees an incredible amount of traffic 
volume and we have some safety issues as it relates to the exit 
ramps and entrance ramps on that highway, particularly in 
Lehigh County right near Fullerton Avenue as well as 7th Street 
and MacArthur Road. We are trying to make some very significant 
improvements. I would like to use this Surface Transportation 
Bill as a way to help improve those interchanges at Fullerton 
Avenue especially as well as MacArthur Road.
    Another issue, too, in my district in the extreme southern 
portion is what I like to call 309 Connector in Montgomery 
County, the Sumneytown Pike Connector that would connect 
essentially the northeast extension of the Pennsylvania 
Turnpike with Route 309. It is an east-west connector that is a 
very high priority for that segment of my district.
    All of these projects are on the Transportation Improvement 
Program, or the TIP as we refer to it. These projects tend to 
have strong support from our regional planners.
    Bridges, quickly I wanted to mention a few bridges. One we 
like to call the Coplay-Northampton Bridge is structurally 
deficient and is in desperate need of repair. This is one of 
the most significantly deficient bridges, I believe, anywhere 
in the commonwealth and probably anywhere within my 
Congressional district.
    Another bridge of great significance is the 8th Street 
Bridge or the Alburtis Meyers Bridge. Alburtis Meyers Bridge is 
in the city of Allentown. It is a grand old bridge but, again, 
is in need of some significant repairs.
    There are other bridges as well that have been identified, 
again by our counties and our municipal planning organization, 
MPO. They have established these as significant priorities for 
the region and ones they would like me to advance going 
forward.
    Other safety projects include the Route 100/Claussville 
Road intersection in Lehigh County where we have had some 
fatalities. Again, we need to make some very significant 
changes to the grading and to the overall intersection at that 
location in a somewhat rural area of my district. Another 
safety project is along the same Route 100/Route 29 
intersection, again in Lehigh County in the southern part of my 
district.
    Beyond that, we also have some mass transit or transit 
projects including an alternative analysis proffered by our 
regional organization, LANTA, the Lehigh and Northampton 
Transportation Authority. They are looking at developing an 
alternative analysis for a rapid speed bus to see if there is a 
way to better connect the people within our district and move 
them more quickly through the district as an alternative to 
perhaps a light rail system. That is also being studied at this 
time in a separate analysis.
    Also, bus purchases are also critical. One final mass 
transit project, what we like to refer to as the Quakertown-
Stony Creek Rail Project, connects essentially the Lansdale 
area to the Quakertown/Shelly area by rail, passenger rail. We 
are looking at an alternatives analysis, which is nearly 
complete. We would like to further advance that particular 
initiative through the Surface Transportation Bill so that is 
something I will be working on very closely. I know my 
colleague, Bucks County Congressman Patrick Murphy, is also 
very much involved with that particular project as well. We 
will have some language for that as this process moves forward.
    At this time, I would like to also mention that I believe 
it is important for the commonwealth of Pennsylvania, a State 
that receives a great deal of cross-State traffic, that the 
funding formula to the States also reflect and would protect 
States like Pennsylvania that have a great deal of cross-State 
traffic to make sure that the funding formula does compensate 
them for the amount of interstate traffic that runs through our 
commonwealth. I know many of my colleagues on both sides of the 
aisle probably share that view. That is something else I want 
this Committee to consider as we move forward.
    At this time I would like to yield back and thank the Chair 
for allowing me this opportunity on the spur of the moment to 
present some priorities for my district. Thank you.
    Mr. Boccieri. Thank you, Mr. Dent. Are there any questions 
for Mr. Dent?
    Mr. Duncan. Mr. Chairman, I don't have any questions but I 
do want to say I am sorry I missed our colleague, Mr. Boozman's 
testimony. I was in the anteroom there and I heard most of it 
over the television. I also know that he and our colleague 
Charles Dent have both been outstanding Members of this 
Committee.
    We are going to make sure that when we work on this Highway 
Bill, Chairman DeFazio, Chairman Oberstar, Mr. Mica, and I have 
all agreed that we are going to really try and take care of the 
Members of this Committee. All of the people on this Committee 
have very important needs in their districts. That is one of 
the reasons why people do serve on this Committee, to try to do 
some things for their districts. This Committee usually is 
filled with people who are workhorses rather than show horses 
and want to try to do good things for their people.
    With that, I want to commend Mr. Dent and Mr. Boozman for 
their testimony.
    Mr. Boccieri. Thank you, Mr. Duncan. Truly, these are not 
red or blue projects. These are about American projects and 
making our Country stronger.
    Mr. Duncan. I will say, too, about Ms. Edwards that I 
should have mentioned her, too. I did catch the last of her 
testimony. She has become a very active Member of this 
Committee in a very short time.
    I wish I could have gone on that trip with you that you 
were on here this last time. I heard some good things about 
that. We need to get you involved in some of these trips we 
take around the U.S. also. We go visit a lot of these projects 
and that is a good thing to do, too. Thank you.
    Mr. Boccieri. There is no question. She is a superstar.
    The Chair right now is going to recognize the Honorable 
Chris Carney from Pennsylvania.

 STATEMENT OF HON. CHRISTOPHER P. CARNEY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Carney. Thank you, Mr. Chair and thank you Mr. Duncan. 
I was very heartened to hear your words just a moment ago that 
you will take care of the Members of this Committee. That is 
great to hear.
    Certainly we know there is no shortage of very worthwhile 
projects across the country, projects that we would have liked 
to have seen funded to a larger extent in the stimulus bill. 
But it is what it is and we are where we are today. We have to 
look at a number of projects that make sense in terms of first 
of all, economic efficiencies in moving freight around the 
country in an efficient manner. We also must look in terms of 
environmental efficiencies in stopping congestion and in terms 
of reducing the pollutants that are caused by trucks idling for 
half an hour, 45 minutes, or an hour at a time in chokepoints 
across the country.
    Certainly one project in my district qualifies on this 
score. That is the Central Susquehanna Valley Thruway, which 
actually is a project that has been on the books for almost 40 
years. The Thruway was designed and put on the books because 
the regional planners saw the chokepoint in the Northumberland, 
Snyder, and Union Counties area of Pennsylvania that I 
represent.
    Unfortunately, their foresight has come to pass and we now 
have a very significant chokepoint in this part of the 
district. Also, it is basically part of the interior of eastern 
seaboard so that, really, this chokepoint affects the 
transportation of commerce throughout the eastern seaboard 
basically from New England down clear into Dixie. The fact is 
that hours and hours are lost here in terms of transit on this 
chokepoint. Lives, unfortunately, are lost as well. Trucks do 
idle for an hour sometimes trying to cross a two lane bridge, 
and they pour tons and tons of pollutants weekly--not annually 
but weekly--into the atmosphere.
    So the project that I really want to point to today, and 
there are certainly many, but the Central Susquehanna Valley 
Thruway is one that I really want to stress.
    In fact, in 2007 actually, Chairman Oberstar came to the 
district to view this project. He actually got stuck in the 
traffic jam. He thought there was an accident or something but, 
truth be known, it is just the normal traffic flow there. He is 
familiar with this road since he traveled it many times himself 
as a younger man.
    But the point is that it is projects like this one that not 
only provide sort of the regional economic stimulus that is 
necessary but also free up the freight to move along the 
eastern seaboard.
    In addition to that, I represent an enormous rural 
district. My district is about 1,100 square miles larger then 
Connecticut. It is not shaped like Connecticut, unfortunately, 
but it is quite large. We have a number of rural highways that 
also have been neglected for about a decade that really need 
whatever help we can provide them. I intend to do that from my 
chair on this Committee.
    Finally, I want to mention just briefly a rail project that 
is also necessary to help relieve congestion on our highways. 
This is the Lackawanna Cutoff that would run from eastern 
Pennsylvania, roughly the Scranton/Wilkes Berre area, across 
through Pike County into New Jersey. This rail cutoff would 
actually, if it was put into place, relieve much of the 
commuter traffic from eastern Pennsylvania going daily into New 
York City.
    In fact, as hospitable as our friends in New Jersey are, 
they don't like the thousands of Pennsylvania cars daily 
clogging their highways, especially Route 80. What they would 
like to see, and certainly we would like to see in conjunction, 
is the Lackawanna Cutoff which would be a portion of this new 
rail system. It would actually take commuters into New York 
City daily and bring them back daily, and thereby relieve an 
enormous amount of congestion.
    We have to think about these projects in terms of what they 
mean together. We can't think about a road without thinking 
about a railroad. We can't think about a railroad without 
thinking about modes of transportation to get people where they 
are going once they arrive at the general destination. So we 
have to think about these things in intermodal terms. The 
Lackawanna Cutoff is certainly one of them that really deserves 
our attention.
    I thank the Chair and I thank the Ranking Member for the 
time to testify this morning. It is important, the work we are 
doing here. What we end up doing today and this week and this 
month and this year in this Committee will determine the 
transportation future of this Nation for generations to come. 
So it is no small matter what we are doing. Thank you very 
much. I yield back.
    Mr. Boccieri. Thank you, Mr. Carney.
    Before we move to the question session, we want to 
recognize the esteemed Chairman of our Committee, Congressman 
Oberstar.
    Mr. Oberstar. Thank you, Mr. Chairman. You look good 
sitting in that chair. Mr. Duncan, you have been very patient.
    I just want to come back to, before I address Mr. Carney's 
comments, Mr. Duncan's reference earlier in the hearing to the 
need for emphasis on rural roads. As we address the problems of 
the metropolitan mobility and the chokepoints of congestion, we 
have to remember that 15 percent of the Nation's surface 
transportation milage is in urban areas but 50 percent of the 
vehicle miles traveled are in metropolitan areas. While we 
address those needs, we also have to make sure that goods can 
move from rural areas into the metropolitan centers of this 
Country.
    We will have a very heavy emphasis on rural roads in the 
next authorization bill. We have to engage the States and U.S. 
DOT in developing a program to raise the quality of rural roads 
to at least a 10 ton level. We have to prioritize those 
investments to ensure that as our farms grow fewer in number 
but larger in size; as more commodity has to be moved in the 
spring planting time for seed, fertilizer, limestone, and so on 
that support good quality farmland; and as in the fall the 
harvest has to be moved efficiently to market the roads are an 
assistance not an impediment to rural transportation.
    We have to make sure that there is adequate capacity in the 
next transportation bill to achieve that. I appreciate the 
gentleman from Tennessee making that reference. Mr. Mica has 
already discussed that with me. We are going to ensure that 
there will be a sizable emphasis on rural transportation in the 
next bill.
    As to Mr. Carney's reference to the Lackawanna Cutoff and 
the need for intermodalism, we need our rail system but the 
railroad can't deliver to your doorstep. Trucks do that. And we 
need an adequate program for trucking. We have to address the 
chokepoints throughout this country.
    The United Parcel Service, for every five minute delay 
their trucks experience nationwide, they lose $100 million in 
overtime costs to drivers, in late delivery fees, and in 
penalties. That is why we have to address the mobility issue of 
freight goods movement in our economy.
    We must squeeze the most that we can out of the several 
modes, making them work together more efficiently. It is not 
good enough to have a multi-modal system. It has to be 
intermodal. I appreciate the gentleman's emphasis. I thank the 
Members.
    Mr. Duncan. Thank you, Mr. Chairman and Chairman Oberstar 
and Mr. Carney. I have been through parts of your district, Mr. 
Carney. It is a beautiful part of the United States.
    Those are important needs that you mentioned. Chairman 
Oberstar did refer to something I said earlier in which I said 
that I read in the National Journal last year that two thirds 
of the counties in the U.S. are losing population. But I also 
always learn from Chairman Oberstar, and he mentioned in a 
meeting the other day that the latest study by the Texas 
Transportation Institute showed that congestion was at a point 
of costing us at least $78 billion a year now. The next study, 
I think you said, was going to probably be closer to $87 
billion. Most of that is in and around these urban areas, these 
megapolises, and it is costing this nation hugely.
    What I think we need to do is come up with sort of a modern 
Homestead Act in which we give people tax incentives and other 
types of incentives that maybe we can come up with to remain in 
or move to these two thirds of the counties that are losing 
population. There should be a way that we can do that. I think 
it is important also that we make sure that we have good 
transportation to and from those areas because people in the 
small towns and rural areas generally have to travel further 
distances to get to their jobs. I think we need to keep that in 
mind.
    But we will work with you, Mr. Carney. I appreciate your 
testimony. Thank you.
    Mr. Boccieri. Thank you. Will there be any Members who have 
any additional questions for Mr. Carney?
    Okay, before we move to our next esteemed colleagues, I 
want to take the liberty to recognize a friend of mine who is 
out there. Colonel John Williams is a Lieutenant Colonel at the 
Air Force Base that I serve, the 910th Airlift Wing in Ohio. We 
have deployed together on a number of rotations around the 
world to Operations Iraqi Freedom and Enduring Freedom.
    He is First Officer with United Airlines and he is here 
today with two Captains, Captain John Barton and Captain Jim 
Smart here representing United Airlines. So thank you for 
coming today. I understand that Captain Barton was President 
Obama's captain after he was elected. Thank you for your 
service, Colonel Williams and thank you for what you do for 
United Airlines, all three of you.
    Now we are going to be moving onto the Honorable Geoff 
Davis from Kentucky and the Honorable Steve Driehaus, a 
colleague of mine who I served with in the legislature to talk 
about some very important projects in the greater Cincinnati/
Kentucky region of Ohio and Kentucky. Thank you.

  STATEMENT OF HON. GEOFF DAVIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF KENTUCKY

    Mr. Davis of Kentucky. Thank you, Mr. Chairman, Ranking 
Member Duncan, and Chairman Oberstar. I appreciate the 
opportunity to share for a few minutes today. Congressman 
Driehaus and I have been working on this since he came into 
Office. We are here to talk about the need for a funding 
mechanism for mega-projects of national significance.
    The Brent Spence Bridge Project is the interstate highway 
bridge that crosses the Ohio River between Cincinnati and 
northern Kentucky between our two districts. It is nationally 
significant as an infrastructure corridor and it is critical to 
our economy.
    Congress, as we all know since many of us have been part of 
this discussion, has repeatedly discussed the need to make 
serious investments in our national infrastructure. The 2009 
Highway Bill presents a significant opportunity to fulfil that 
need. Through this process, Congress must find a new way to 
manage mega-projects of national significance.
    As you know, funding for these projects is a matter of 
great concern to Chairman Oberstar and Ranking Member Mica. I 
commend them for their vision of developing a rational process 
whereby projects of national significance will be objectively 
identified and funded based on merit with national 
infrastructure corridors. Despite these attempts in the past, 
Congress has not established a sufficient mechanism for funding 
mega-projects whose benefits are national but whose costs are 
so high that they can't be funded by one or two States.
    The Brent Spence Bridge Project will ultimately cost 
between $2 and $3 billion to complete. However, when we compare 
that to the more than $417 billion annually that the bridge 
carries for our economy and Congress, the cost is clearly 
justified. However, Ohio and Kentucky would both have to 
dedicate their entire State transportation budgets for over a 
year, in spite of everything else, to accomplish this project.
    Major transportation bottlenecks cost thousands of hours of 
delay and have a negative impact on individual travelers, 
commuters, families, truckers, shippers, and receivers 
particularly when the routes they travel are hostage to 
underfunded infrastructure nodes. I think the Chairman had a 
point and example of the cost to jobs of the United Parcel 
Service for each five minutes of delay. We can multiply this 
thousands and thousands and thousands of times over for 
revenues lost ultimately for job creation.
    The Woodrow Wilson Bridge between Maryland and Virginia 
just southeast of downtown Washington, D.C. is traveled daily 
by some in the room today. In 1993, 200,000 vehicles crossed 
that bridge each day. The Wilson Bridge carries Interstates 95 
and 495 across the Potomac River. The bridge supports a 
transportation corridor of national significance connecting the 
southeastern and the northeastern United States.
    At the time, the U.S. Department of Transportation 
estimated the value of freight trucked across that bridge was 
the equivalent of 1.3 percent of the entire gross domestic 
product of the United States. By the mid-1990s, the bridge was 
carrying 250 percent of the traffic volume for which it was 
designed. The bridge only had three lanes but it carried five 
lanes worth of traffic trying to squeeze through. This became a 
bottleneck with national significance, causing tens of 
thousands of hours of delays to American travelers but most of 
all to commerce.
    Neither Maryland nor Virginia could assume the $2.5 billion 
cost of the project, which was several times their annual 
State-wide infrastructure budgets combined. Additionally, there 
was no Federal program to fund projects of national 
significance.
    If Congress had not authorized special funding for the 
Wilson Bridge, funding that paid for the majority of the cost 
of the project, the Wilson Bridge may have come close to 
closure with economic impacts that would be felt far beyond the 
D.C. area throughout the eastern seaboard of the United States. 
Congress helped resolve that funding issue and the Woodrow 
Wilson Bridge project was completed. However, the resolution 
was cobbled together through exception rather than through a 
cohesive, strategic decision making and prioritization.
    The 2009 Highway Bill needs to include a mechanism for 
dealing with major infrastructure projects with a national 
impact.
    The Brent Spence Bridge connects Kentucky to southwestern 
Ohio between my district and Congressman Driehaus's district in 
Cincinnati. This is a project I personally have been working on 
for nearly five years. However, the bridge also connects Canada 
to Florida via I-75, as well as Ohio to the western United 
States via I-71. It feeds traffic and freight into Chicago via 
I-74 and all the way to Alabama via I-65. This bridge affects 
commerce in over 60 Congressional districts in Georgia, 
Florida, Illinois, Indiana, Iowa, Kentucky, Michigan, Ohio, and 
Tennessee.
    It was designed to carry 80.000 vehicles per day but will 
soon have to accommodate nearly 200,000 vehicles per day. 
Indeed, this Bridge is functionally obsolete yet it carries 
$417 billion in freight annually across the Ohio River for 
Federal commerce. That is roughly 3 percent of the U.S. gross 
domestic product in 2008 or twice what the Wilson Bridge's 
carriage was in commerce daily. By 2030, the amount of that 
freight is expected to increase to $830 billion.
    In other words, this bridge is a critical piece of 
essential infrastructure to the American economy. In the next 
Surface Transportation Bill, we will have an opportunity to 
ensure that the I-71, I-74, and I-75 corridors continue their 
roles in our national transportation system by building a new 
bridge at their crucial intersection. The achievement of this 
goal would support or create 83,000 jobs permanently and save 
businesses and motorists approximately $784 million annually.
    The Brent Spence Bridge is but one example of a 
transportation mega-project that is critical to the American 
economy. I urge all my colleagues to ensure the 2009 Highway 
Bill includes a program for dealing with nationally significant 
projects. I thank you all for time, especially the Chairman for 
his interest in intervention in such national projects in the 
past. I yield back my time, Mr. Chairman.

STATEMENT OF HON. STEVE DRIEHAUS, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Driehaus. Thank you, Mr. Chairman, Ranking Member 
Duncan, and the Chairman Oberstar of the Transportation and 
Infrastructure Committee for allowing us to testify before you 
today. I also want to thank Congresswoman Schmidt who was a big 
supporter of this project as well in eastern Cincinnati.
    This project--and I am not going to go over the numbers 
that Congressman Davis just went over--but when we talk about 
projects of regional and national significance, I don't know 
that we have a better example of that then the Brent Spence 
Bridge. I would refer to you the map behind me which shows, as 
Congressman Davis suggested, I-75 connecting northern Michigan 
and Canada all the way to southern Florida. But at the Brent 
Spence Bridge at the Ohio River, you have I-75 coming together 
with I-71 and I-74 all at the same time. Three major interstate 
highways are crossing one of the largest rivers in the country 
on one of the busiest bridges that we have in the country.
    As Congressman Davis has already outlined, the cost of 
replacing this span would exceed the total appropriation for 
both Ohio and Kentucky in highway funds on an annual basis. 
Now, we have already put, in the Federal government, almost $59 
million in SAFETEA-LU projects associated with the Brent Spence 
Bridge. We have made tremendous progress due to leadership of 
Congressman Davis and others; and of our Senators on both sides 
of the River, on both sides of the isle.
    We are now to the point where the folks in Cincinnati and 
the folks in northern Kentucky are ready to come together on a 
single proposal to erect a parallel bridge that would separate 
the traffic of I-75 and I-71 to accommodate the tremendous 
amount of commerce that is currently going across the Ohio 
River.
    When you look at the Federal Register, Mr. Chairman, I 
would refer to you the Federal Register of October 24th of 2008 
where the Department of Transportation, through its rules, 
defines projects of regional and national significance. It 
states that ``a multi-State project, meeting the definition of 
an eligible project under 505.5 of this Section, shall have 
eligible project costs that are quantified in the project 
proposal as equal to or exceeding the lesser of $500 million or 
75 percent of the amount of the Federal highway assistance 
funds apportioned for the most recently completed fiscal year 
to the State in which the project is located that has the 
largest apportionment.''
    In this case, that would be Kentucky. As Congressman Davis 
has already indicated, this exceeds not just Kentucky but also 
Ohio. The total cost of the project is somewhere between $2.5 
and $3 billion. So when we talk about reasons for this 
Committee coming together and this Congress coming together, to 
recognize that there are significant spans that need to be 
funded that fall outside of the typical parameters of this 
Committee, I believe that this project should be the example 
used in our country of this Committee coming together to 
recognize the dependence of this type of span for the 
international commerce that takes place throughout the United 
States.
    So I yield back the rest of my time, Mr. Chairman. With 
that, I also want to thank Mr. Cole and his staff for the 
tremendous work that has been done on this already. With that, 
I yield back my time, Mr. Chairman.
    Mr. Boccieri. Thank you, Congressman Driehaus and 
Congressman Davis. I have a quick question. I know Congressman 
Driehaus and I worked in a State legislature in Ohio. The 
funding mechanism in the State of Ohio is based primarily on 
congestion and traffic mitigation with just a small portion of 
emphasis given to economic development. Does the Kentucky 
Department of Transportation have that same limitation?
    Mr. Davis of Kentucky. Essentially, it does. As you well 
know from being a State legislator, oftentimes there are 
geographic considerations that take place in the statehouse 
that will not necessarily address the economic priorities for 
growth.
    This is such a large project and we have so many pressing 
needs in our rural counties, as Ranking Member Duncan pointed 
out that many States have in his earlier testimony, that we are 
not adequately suited even within our funding mechanism. As I 
stated previously, it would take our entire transportation 
budget over a period of several years to be able accomplish 
such a project and meet our basic needs for maintenance and 
upgrade.
    Therefore, the real issue, particularly with the amount of 
national commerce involved--and both Congressman Driehaus and I 
agree--is that it is in the interests of the Federal government 
nationally to elevate this project.
    Mr. Boccieri. Congressman Oberstar?
    Mr. Oberstar. I want to thank both the Members for their 
presentation. They both provided good, factual information.
    Congressman Davis, you rightly sized up the Wilson Bridge. 
I was engaged in the conference on TEA-21 when we reached the 
agreement on the Wilson Bridge. At the time I pointed out that 
it was carrying 1 percent of the gross domestic product of the 
United States. But the goods were being backed up all the way 
up into New York because of the slow times crossing the Wilson 
Bridge.
    What will be the benefits of an improved Brent Spence 
Bridge?
    By the way, I didn't know Brent Spence but when I was in 
graduate school working in the mail room of the House of 
Representatives, I delivered mail to his office on the 6:00 
a.m. shift. So I knew of Brent Spence. It is fitting that he 
has a bridge named after him.
    What will be the delivery time benefits from the 
improvements you are proposing for this facility?
    Mr. Davis of Kentucky. Before deferring to Congressman 
Driehaus, the one thing that I can say is there would be 
sustained growth within our tri-State region and the creation 
of 83,000 permanent jobs. More importantly, with growth of the 
population, looking at the challenges that our automotive 
industry and manufacturing industry in general is facing in the 
United States, it would provide a clear corridor to better 
synchronize logistics shipments and transportation all the way 
from southern Florida to Canada.
    There is a significant safety factor on the bridge right 
now. It is one of the least safe major pieces of infrastructure 
to travel in the United States. I don't think an adequate price 
could be placed on life and limb.
    But clearly based on $417 billion in commerce, it is 
something that would pay for itself in relatively short order 
through the creation of new taxpayers.
    Mr. Driehaus. I would just point out that as we have 
discussed previously, Mr. Chairman, this is in fact the heart 
of an intermodal system in Cincinnati and northern Kentucky. 
Consider the barge traffic and the facilities that are 
currently underway, and the rail traffic that is being 
considered and designed in greater Cincinnati both for commuter 
rail as well as freight, and how both will then add to the 
complement of traffic going across the Brent Spence Bridge. 
This is really a convergence of all of those activities when it 
comes to international commerce.
    This location is so central to so many markets throughout 
the Midwest, connecting the North and the South, that it seems 
clear to us that the amount of traffic will exceed rather 
dramatically. As a matter of fact, we are expecting an increase 
of up to $830 billion by 2030 in real dollars in terms of 
commerce crossing that bridge.
    But I think you have to keep in mind, and I think you have 
to put it within the proper context, that we are not just going 
to see an increase in truck traffic and car traffic across the 
Ohio River. What you are going to see is a tremendous increase 
in both rail and freight as well as the traffic along barges 
coming down the Ohio River. This is a critical piece of that 
intermodal system.
    Mr. Oberstar. There is no question about it, you both have 
stated the case very well. What I would like you to do is 
supplement your presentation with the current cost of 
congestion and the time spent in truck traffic on the 
approaches to as well as crossing over that bridge. And what 
the new vision will create for transportation? How is what you 
are proposing going to reduce travel times and thereby improve 
productivity?
    This improvement of productivity, and improvement of 
performance, and accountability, and transparency is going to 
be a centerpiece of the new transportation program that we are 
going to write in this Committee.
    You have got a document there.
    Mr. Davis of Kentucky. To your point, Mr. Chairman, 
Congressman Driehaus has provided a document both our offices 
have from our joint transportation authority in Cincinnati and 
northern Kentucky. This is the summary document and what we 
would like to do is prepare and submit it.
    Mr. Oberstar. Why don't you have someone summarize the 
summary and answer that question for me?
    Mr. Davis of Kentucky. Essentially, in the briefing that we 
received last week by the various groups of engineers who have 
looked at this project going out over the next 30 to 40 years, 
the top two alternatives that have been looked at and the 
ultimate one that will be recommended will provide free flow of 
traffic at peak periods through the projected growth and 
capacity in the long term. I can't give you the precise numbers 
right now but we can get you that for the record. It would be 
substantive. More importantly to your point on throughput, this 
bridge is a node that sits effectively within eight hours of 
approximately 80 percent of the American population. So it in 
fact sees a very high amount of tractor trailer transit.
    Mr. Oberstar. I have asked our staff to gather from U.S. 
DOT and from the Maryland, Virginia, and D.C. Departments of 
Transportation information on what are the benefits of this $2 
billion investment we made in the Wilson Bridge. We need to be 
accountable. We need to show the public what they are getting 
for their investment. This is a case study in hand. Your case 
is a study for the future. If you can help us with that 
information, it would be very useful. Thank you for your 
splendid contribution.
    Mr. Davis of Kentucky. Thank you, Mr. Chairman.
    Mr. Duncan. Well, thank you, Mr. Chairman. My father grew 
up in Scott County, Tennessee. When Lyndon Johnson started his 
war on poverty, that was one of the 10 poorest counties in the 
U.S. It was a very common thing for most of the young people to 
leave and go North to get jobs. There were 10 children in my 
dad's family. Three of his sisters moved to Cincinnati when 
they were young and two of his brothers moved to Dayton. So I 
have been up many, many times to visit aunts and uncles and 
cousins in that area. In fact, we have so many relatives there 
that this past summer we had a Duncan family reunion at Fort 
Mitchell, just very close to the bridge that you are talking 
about. I have been across that bridge many times so I know the 
need.
    One thing I did miss, though, and maybe somebody was 
talking to me, was what is the total cost of this project? I 
didn't catch that.
    Mr. Driehaus. The total cost of the project is between $2.5 
and $3 billion.
    Mr. Duncan. $2.5 to $3 billion?
    Mr. Driehaus. The request being made in this bill is around 
$800 million, which will allow us to begin construction and 
move forward over the next six years. We have design, we have 
to purchase the right-of-ways, and do some of the environmental 
assessments. But we believe this will get us well into 
construction with around $800 million in this bill.
    Mr. Duncan. How come there is such a wide gap? $500 million 
is a pretty wide gap.
    Mr. Davis of Kentucky. There are two reasons for that. The 
first reason is the original range represents a couple of the 
different options that a broad consensus committee came up with 
looking at the traffic options. The second is largely driven by 
the economy. Fluctuations in the cost of energy and hence the 
cost of transportation, fuel, steel, and concrete or cement are 
going to be driven largely by the macroeconomy at the time. So 
there is some projection for what the cost would be. Were those 
costs to substantially decrease, the bridge cost would decrease 
commensurably.
    Mr. Duncan. How long would it take to complete the project?
    Mr. Driehaus. We think it is about seven years before the 
total completion.
    Just to supplement what was said concerning the cost, we 
are looking at an alternative that would be building a bridge 
parallel to the existing bridge. We believe that would be the 
lowest cost alternative in terms of purchasing property, 
especially on the Cincinnati side of the river. There is great 
concern that if you move the bridge further down the river, 
further west, that a tremendous amount of property would have 
to be purchased. Now as it is, we have to look at a 
transmission facility currently owned by Duke Energy that would 
have to be relocated. But we believe the alternative that is 
being proposed at this point, which is the parallel bridge just 
next to the Brent Spence, is the most cost effective 
alternative. We have to purchase the least amount of right-of-
way under that alternative because so much of the right-of-way 
is currently controlled.
    Mr. Duncan. Thank you very much.
    Mr. Boccieri. The Chair recognizes Congresswoman Edwards at 
this point.
    Ms. Edwards of Maryland. Thank you gentlemen for your 
testimony. Since you mentioned the Woodrow Wilson Bridge, which 
is near and dear to my heart and in my Congressional district, 
I just want to suggest to you one if you need any assistance in 
this, especially from the State of Maryland, please do reach 
out to us. I will note that the soon to be incoming Deputy at 
the Department of Transportation, John Porcari, the 
Transportation Secretary for the State of Maryland was deeply 
involved in all of the efforts over the years on the Woodrow 
Wilson Bridge project. He could be of great assistance to you.
    There were some tremendous lessons learned both about 
acquiring the right-of-way, gauging the local communities, and 
pulling the stakeholders together that ended up bringing the 
project both on cost and on time, on schedule. So I would 
suggest to you very strongly as we move forward that you reach 
out to these important partners on the bridge project. Thank 
you.
    Mr. Davis of Kentucky. Thank you. We would appreciate that. 
Certainly we are looking to learn and the organizations that 
are involved in partnering are trying to grab best practices 
from around the Nation. Certainly that is a fine example.
    Mr. Boccieri. The Chair now recognizes Congresswoman 
Schmidt.
    Mrs. Schmidt. Thank you, Mr. Chairman. I just want to 
reiterate the importance of the redoing of the Brent Spence 
Bridge. One of the things that amazes people when I talk about 
the State of Ohio is that we are either ranked as the fifth or 
sixth most traveled State in the Union regarding transportation 
as far as cars and trucks. This bridge is not only functionally 
obsolete, but in order to accommodate the massive traffic that 
goes through on a daily basis, they have widened the lanes to 
the margins. If you have a truck or a car that breaks down, 
there is absolutely no place for that car or that truck to go. 
So when Congressman Davis and Congressman Driehaus say that it 
is an unsafe bridge, it is unsafe due to the fact of the 
carriage of automobiles that go across it each and every day.
    This is something that has been of major importance to the 
greater Cincinnati/northern Kentucky area for well over a 
decade. I strongly urge this body authorize the money for the 
appropriations in the Transportation Bill for this very much 
needed project. It is not only important to northern Kentucky 
and to Ohio, it is really important to the folks from Canada to 
Florida. Thank you.
    Mr. Boccieri. If there are no further questions for the 
gentlemen, thank you for your testimony.
    The Chair will now call the Honorable Dr. Bill Foster.

  STATEMENT OF HON. BILL FOSTER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Foster. Thank you, Chairwoman Edwards. I would also 
like to thank Chairman Oberstar and Ranking Member Mica for 
giving me this opportunity to testify on behalf of my 
constituents and their many needs in the communities of the 
14th district.
    This legislation could not come at a more necessary time 
for the people of Illinois who are struggling mightily with 
deteriorating roads and little support from their government to 
maintain them. As I travel through my district, I repeatedly 
hear pleas for help in maintaining the basic roads that are the 
lifeblood of our economy. I stand here on behalf of the people 
of Illinois and implore you for your support.
    The 14th district has many unique needs given the wide 
range of communities within its boundaries. I have several ex-
urban communities managing urban sprawl, including the fourth 
fastest growing county in the Country. I also have a 
significant amount of rural farm areas that are having a hard 
time keeping up with the amount of heavy truck traffic that 
barrels down Main Street in place of the interstate to avoid 
paying extra tolls.
    For far too long, the residents of my district have 
suffered under a failed State government which for seven years 
has been unable to pass a capital bill. So for seven years 
almost, new Federally funded projects were started to relieve 
the congestion of a growing metropolitan area. In many 
instances, maintenance work was put off until the situation 
became so bad that the local towns had to step in and shoulder 
the bulk of the costs themselves.
    I wish to make a special note of Kendall County, which is 
the fourth fastest growing county in the Country. It is 
projected to have doubled its population over 10 years. The 
influx of an additional 50,000 residents presents unique 
challenges in building the new infrastructure to accommodate 
all the new residents along with the usual upkeep on existing 
roads.
    These communities have been held together through a series 
of patchwork efforts that are a testimony to the 
entrepreneurial spirit of 14th district residents and their 
representatives. But their efforts are not sustainable for long 
term development. Illinois is only now coming out of a dark 
time where partisan political fights have trumped the needs of 
the people. When citizens are more hopeful that Springfield 
will start to hear their cries for help, Washington must also 
heed their call. Our citizens must know that we are spending 
their money wisely and in ways that benefit them.
    Along with the immediate needs and short term benefits, we 
have an obligation to think also of regional long term 
planning. There are upcoming projects that we will be 
requesting that are exceptional opportunities to plan for 15 or 
20 years into the future, to set the destiny of our districts 
and communities. This includes cultivating area for traditional 
industrial growth along with green collar jobs.
    My district is in a unique position of partially 
encompassing a growing hub of industry and intermodal 
transportation. Two intercontinental rail lines intersect 
adjacent to the intersection of two interstate highways in 
Stewart and Rochelle, all connected by this pair of small towns 
that took the initiative upon themselves to connect these modes 
of transportation. These towns own and operate their own small 
rail line to encourage competition and economic growth for the 
factories and the green energy plants located there.
    With a small investment of Federal money to improve their 
highway and handle the increased volume of industrial traffic, 
this small town shows the great potential for growth. It can be 
a beacon of good news in a swarm of gloomy economic 
predictions. I predict that this will be one of the smarter, 
more efficient ways to spend Federal money that will show an 
excellent return on our investment.
    Recently residents of my district along with many 
communities along the Elgin, Joliet, and Eastern Rail, the 
EJ&E, have been burdened with the unfair cost of a one sided 
rail merger. Canadian National's merger with the EJ&E has 
saddled many communities including Aurora, the second largest 
city of Illinois, with a price tag to mitigate the disruptive 
flow of traffic and emergency services along the railroad. As 
we speak, CN is battling in court to even further reduce the 
bare minimum of their share for the mitigation costs for this 
increase in traffic.
    I, along with my fellow colleagues whose districts are 
effected by this, will be pushing as hard as we can for Federal 
assistance to these communities. We have had many productive 
conversations with the Chairman in the past on this and we are 
looking forward to working with him on this important issue.
    Finally, I wish to commend the Chairman and the Committee 
for recognizing the systemic inequity that exists in normal 
transportation funding. While the stimulus package extended 
millions to communities to assist in their needs, my home State 
of Illinois decided that towns and communities with a 
population of under 5,000 would not qualify to receive funds.
    I was distraught when I heard that because these small 
towns in rural Illinois are the communities that often need 
this assistance the most. This is why the Chairman's 
recognition of these inequalities and support for rural 
communities in the priority project requests is greatly 
appreciated. Small towns across my district are also grateful 
that their needs and concerns are being considered fairly.
    Thank you again for taking time to hear my thoughts and 
concerns. I feel privileged to be able to serve the people of 
Illinois in my capacity. I only hope that my efforts will bear 
positive results for my constituents. Thank you.
    Ms. Edwards of Maryland. [Presiding] Thank you, Mr. Foster. 
We will be in a short recess until the next Member arrives.
    [Recess.]
    Good afternoon, Mr. Melancon. It is nice to see you this 
morning. Thank you for your testimony.

STATEMENT OF HON. CHARLIE MELACON, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Mr. Melancon. Thank you, Chairwoman Edwards. I appreciate 
the opportunity to be here. If I could, I would like to thank 
Chairman Oberstar and Ranking Member Mica as well as you for 
allowing me the opportunity to come before you today to 
advocate for Louisiana Highway 1's inclusion as a high priority 
project within the next Surface Transportation legislation.
    First I want to thank the Committee for recognizing the 
importance of Louisiana 1 in SAFETEA-LU a couple of years ago. 
Without the Committee's significant investment in this high 
priority corridor, LA-1 would not be under construction right 
now. I understand that the contractor is working towards 
bringing the new bridge into service as early as August of this 
year and I would hope that maybe some of the Members of the 
Committee might travel to south Louisiana to see this 
investment.
    To remind the Members of the Committee, Louisiana Highway 1 
provides critical access to Port Fourchon, which is Louisiana's 
southernmost port and which supports nearly 90 percent of deep 
water oil and gas production in the Gulf of Mexico.
    While every Member has infrastructure in their district 
that is important, few can boast the direct financial benefits 
that Louisiana Highway 1 offers to my district and to this 
Country. A 2008 economic impact study conducted for the greater 
Lefourche Port Commission and the South Louisiana Economic 
Council concluded that a three week loss of services or access 
to Port Fuschon [phonetic] would result in a loss of nearly $10 
billion in sales at the U.S. firms. It would also cost over 
$2.8 billion in household earnings and a loss of 77,440 jobs in 
this Nation during that period.
    As we recall too well the economic impact of a shut-in oil 
and gas industry as we experienced after Hurricanes Katrina and 
Rita, make these findings more than just an economic estimate. 
We have felt the tangible harm caused when the Gulf of Mexico's 
oil and gas production was forced to stop after those two 
horrendous storms.
    As phase one of the Louisiana Highway 1 Project nears 
completion, my request to the Committee this year is to assist 
in the construction of phase two of the project. This next 
phase will extend the elevated highway from Port Fourchon 
within the levy system some 30 miles north to the city of 
Golden Meadow, Louisiana. This phase is estimated to cost $360 
million. While I certainly do not expect that the Committee 
will fund the entire project--but I can always hope--at this 
full amount, I hope that the Committee will again recognize the 
importance of LA-1 as a critical energy corridor for this 
Country.
    The Committee's previous foresight enabled the construction 
of phase one of the project. We hope to build on that success 
in this reauthorization. I want to thank you and the Committee 
for this opportunity to speak with you today. I look forward to 
working with you on this transportation authorization measure. 
Thank you, Madam Chairman.
    Ms. Edwards of Maryland. Thank you, Mr. Melancon. I will 
just remind you that as for many of our Members testifying 
today, hope does spring eternal. Thank you.
    Mr. Melancon. I thank you very much.
    Ms. Edwards of Maryland. The Committee will stand in recess 
until our next Member is available to testify.
    [Recess.]
    The Chair recognizes Mr. Hare of Illinois.

STATEMENT OF HON. PHIL HARE, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF ILLINOIS

    Mr. Hare. Thank you, Madam Chairman. First I would like to 
thank Chairman DeFazio and his hard working staff for holding 
this important hearing. This Subcommittee possesses a 
tremendous responsibility in laying the foundation of America's 
progress, not only in terms of surface transportation but in 
terms of jobs and livelihoods. The upcoming Surface 
Transportation Authorization legislation will affect more than 
mobility; it will affect how our economy functions and how we 
live our lives.
    In my testimony today I will highlight several examples of 
how I envision this bill helping to improve the lives of the 
people of west, central, and southern Illinois by laying out 
the high priority projects which I intend to pursue. I commend 
the Chairman for holding this hearing and the Committee effort 
to ensure greater transparency and accountability in the 
upcoming Surface Transportation Authorization legislation.
    My number one transportation priority is restoring Amtrak 
passenger rail service from the quad-city area of Illinois to 
Iowa and to Chicago. I am submitting a request on behalf of the 
Illinois Department of Transportation for the amount of $22.7 
million for track improvements that will restore this vital 
infrastructure and transportation system.
    The quad-cities are the first major stop along the most 
highly populated corridor without Amtrak service to Chicago. 
Plans to expand service from Chicago to the quad-cities include 
continued service from the quad-cities to Iowa City, to Des 
Moines, and to Omaha.
    According to a 2008 feasibility study, Amtrak forecast the 
quad-cities, with the metropolitan population of 400,000 plus 
residents, to have an annual ridership over 110,000 between the 
quad-cities and Chicago. With 10.2 million people living in the 
corridor's major metropolitan areas, the total ridership is 
expected to skyrocket with each additional stop. For example, 
when service is extended from the quad-cities to Iowa City, 
ridership to Chicago jumps to 187,000 people annually.
    The quad-city region will experience economic growth 
resulting from Amtrak service including between 550 to 825 new 
jobs, an $11 to $16 million increase in household income, and a 
$52 to $77 million increase in property values.
    I am also submitting several HPPs that fall under the 
highway title of the reauthorization. All these projects will 
improve the safety of the traveling public as well as foster 
economic growth by creating jobs. One of these is the 
reconstruction of the Brighton-Bunker Hill Road, part of 
Highway 14 in McCook County, Illinois. Reconstruction of the 
road will allow 80,000 pounds trucks to use the new road, 
thereby improving commerce and strengthening the economy of 
McCook County.
    Another such HPP request that I am submitting is on behalf 
of the city of Galesburg, Illinois for the North Seminary/North 
Kellogg Street Overpass Project. This project will enhance 
neighborhood safety, emergency response, and capacity needs of 
the infrastructure by providing separated areas to reduce 
delays and congestion in the downtown area resulting from 
increased train traffic on the Burlington Northern Santa Fe 
Chillacathy [phonetic] subdivision while preserving the 
historic and aesthetic nature of the community.
    I will also submit a request for expansion of U.S. Highway 
34 from Gulf Port to Mammoth, Illinois on behalf of the Western 
Illinois Economic Development Partnership. Highway 34 as it 
stands is one of the busiest and deadliest two lane roads in 
the State of Illinois. This two lane road is used by large 
semis driving goods to and from a local ethanol plant and to 
distribution centers that are located along Highway 34. This 
road also connects Interstate 80 in Iowa and Interstate 74 in 
Illinois and is often used as a shortcut between the two 
interstates by semis, increasing traffic on this narrow road 
and endangering people's lives.
    On behalf of the 336 Coalition, I will submit a request for 
Illinois Highway 336 from Peoria to Macomb, Illinois. This 
project will provide the only four lane facility through Fulton 
County and will connect the new Illinois 336 facility recently 
completed between Macomb and Quincy, Illinois with interstate 
74 in the eastern and northern portions of the State. This new 
four lane, 65 miles per hour facility will alleviate traffic 
congestion on Illinois 116 as well as several other two lane 
State routes along the corridor.
    Lastly, I will highlight a project that has both regional 
and national significance, replacement of the Interstate 74 
bridge, which I will pursue funding for in the appropriate 
title. The I-74 bridge corridor is extremely important to the 
commerce of the area, providing for movement of people and 
freight to employment centers, entertainment venues, and 
commercial and industrial sites including the quad-cities 
international airport.
    This project will replace the I-74 bridge which is 
functionally obsolete and has never met interstate standards. 
The spans were built sometime between 1935 and 1959, both for 
local interstate traffic, and were retrofitted to become 
Interstate 74 in the 1970s. The bridge has no shoulders. It is 
carrying nearly 78,000 vehicles per day but was designed to 
carry less than 50,000 vehicles per day. Crashes along portions 
of the Interstate 74 corridor exceed three times the national 
average for similar corridors as described in the draft 
environmental impact.
    I thank you, Madam Chairman for allowing me to insert my 
statement into the record. Thank you very much.
    Ms. Edwards of Maryland. Thank you, Mr. Hare. Are there any 
questions by Members for Mr. Hare?
    The Chair now recognizes Mrs. Napolitano of California.

  STATEMENT OF HON. GRACE F. NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Madam Chairwoman. Thank you for 
allowing us to have some time to discuss high priority programs 
in our districts. I thank Mr. DeFazio, Ranking Member Duncan, 
and fellow Members of the Subcommittee.
    I urge the Committee to continue to designate and fund the 
most important project in my area, the Alameda Corridor East 
Grade Separation Project in San Gabriel Valley as a project of 
not only regional but also national significance. I am also 
offering these remarks not only on my own behalf but also on 
behalf of my distinguished colleagues representing the San 
Gabriel, Congressman David Dreier, Congressman Gary Miller, and 
Congressman Adam Schiff, who also join me in support of the 
ACE, Alameda Corridor East San Gabriel Valley Project.
    This is a project that runs out of the two ports of Los 
Angeles and Long Beach, goes up into Los Angeles, and then runs 
through my whole district. It covers 54 grade crossings which 
are not separated. Only 20 are designated to be separated. Ten 
are scheduled for funding and the other 10 are in limbo. What 
that means is that although they may be able to increase the 
expediting of the handling of the unloading of the vessels, 
they will get to Los Angeles and then they are going to run 
into slowdown in my whole district because there are grade 
crossings, 54 of them, to lead them out into the rest of the 
United States.
    I certainly want to thank my colleagues on this 
Subcommittee for their support on the Alameda Corridor East in 
San Gabriel Valley Project in the past by designating it both 
as a national high priority trade corridor and also as a 
project of regional and national significance. It handles 45 to 
55 percent of the Nation's goods. That means that out of those 
two ports, the rest of the material comes to the rest of the 
United States. This corridor facilitates the movement of goods 
from those ports of Los Angeles and Long Beach through the San 
Gabriel Valley to, of course, the rest of the waiting business 
in the Nation.
    As Congress seeks to encourage national economic recovery, 
significant infrastructure in transportation projects will play 
a key role in creating much needed jobs in the construction 
sector. The Alameda Corridor East San Gabriel Valley Grade 
Separation Project will not only create jobs but will help 
unclog the trade corridor bottlenecks at the leading freight 
gateway for our Nation.
    In fact, projections show that the grade separations will 
eliminate a 300 percent increase in auto and truck traffic 
delay at crossings, resulting in up to a 160 percent increase 
in rail traffic and a 40 percent increase in vehicular traffic. 
Now, I understand that currently there are 80 trains a day 
going through my whole district. This increase is going to be 
to 120 trains per day crossing 54 street crossings of which 
only 20, some day in the future, will be separated to allow 
traffic to go through unrestricted.
    The 20 separations the project will construct at the 
busiest crossings of this valley will help eliminate 221 tons 
of air pollution from emissions annually at the worst air basin 
in the Nation.
    Grade separations deliver vital safety benefits including 
the elimination of delays for emergency responders as well as 
of the possibilities of deadly collisions between trains, 
vehicles, and pedestrians. We know people don't want to wait. 
They go around the arms and sometimes get into very heavy 
accidents, sometimes even fatalities.
    The grade separation which will commence construction this 
year on Novalis Street [phonetic] is in my Congressional 
district. This will eliminate the potential for crossing 
collisions, which are projected by the Federal Railroad 
Administration to occur at this crossing once every four years. 
They have already done the math.
    Committee Members and leaders are justifiably concerned 
that the Federal commitments made available through prior 
Transportation Authorization legislation remained little used 
or dormant. I share that concern and I am pleased to report 
that the Alameda Construction Authority has expended or 
obligated 95 percent or more of the $135 million in Federal 
funds made available through the TEA-21 legislation with the 
remainder obligated next month. Of the more than $65 million 
made available through SAFETEA-LU, the ACE Construction 
Authority has expended or obligated 65 percent with the 
remained to be obligated by early fall of this year.
    The ACE Construction Authority has a commendable record in 
completing projects on time and on budget. It has made 
significant progress toward completing the first 10 grade 
separations in the ACE San Gabriel Valley Program.
    While most projects around the Country will request an 80 
percent Federal commitment toward their total project costs, 
the ACE Construction Authority is only requesting 40 percent in 
Federal share of the $954 million project. They have already 
secured significant local, State, and railroad funding 
commitments to help deliver the grade separations projects 
through construction completion. The Authority can complete the 
next 10 grade separations projects in its program by the year 
2014 if $344 million is secured.
    I would like to enter into the record, Madam Chairwoman, a 
number of records from the councils of government and other 
entities that support and sustain the information I have just 
revealed to this Subcommittee. I would like to enter it into 
the record.
    Ms. Edwards of Maryland. Without objection.
    Mrs. Napolitano. Thank you. Thank you for your attention. I 
certainly stand ready to work with my colleagues as we proceed 
with drafting transportation program authorization legislation. 
This legislation will present a significant opportunity to 
encourage economic recovery, improve air quality, mobility, and 
safety through the support for high priority projects such as 
the ACE Project in my district which will bring not only a lot 
of jobs but will also alleviate safety concerns. Thank you, 
Madam Chairwoman.
    Ms. Edwards of Maryland. Thank you, Mrs. Napolitano. Do 
Members have questions for Mrs. Napolitano?
    The Chair will stand in recess until our next Member 
arrives.
    [Recess.]
    Ms. Edwards of Maryland. The Chair recognizes Mr. Schrader. 
Thank you very much for your testimony this afternoon.

 STATEMENT OF HON. KURT SCHRADER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Schrader. Thank you, Madam Chairwoman. I appreciate you 
coming back from recess so quickly. Madam Chairwoman, I would 
like to thank the Committee for the opportunity to testify 
today on our transportation needs in the 5th Congressional 
district of Oregon.
    As the Committee and the Congress move forward with the 
transportation authorization, I will be submitting a high 
priority project request to help support the construction of an 
important interchange at the junction of Highways 214, 219, and 
Interstate 5 in Woodburn, Oregon. This Woodburn interchange has 
been one of the top priorities of Oregonians for a long, long 
time. The interchange was first constructed in 1950 and last 
updated in 1975.
    It is a major choking point along the Interstate 5 corridor 
on the west coast through the Willamette Valley. It slows 
traffic, hurting businesses and impeding freight movement, and 
it puts the safety of drivers, cyclists and pedestrians at 
risk. The interchange routinely delays traffic. It has caused 
countless unnecessary automobile accidents along the main 
transit route between Portland and the State capital in Salem. 
In fact, four of the road segments in the area fall within the 
top 10 percent of the Oregon Department of Transportation's 
worst crash locations.
    Constructing a new, wider interchange with pedestrian 
protections and a partial cloverleaf design will dramatically 
increase safety and mobility to accommodate the needs of this 
growing community and the freight and vehicular traffic in our 
region.
    I will also be submitting a request to aid Oregon's coastal 
communities. Every year, winter storms come in from the 
Pacific, making U.S. 101 along the Oregon coast one of the most 
treacherous routes in our Country. Roads regularly wash out or 
cover with debris from landslides disturbing the mobility of 
rural communities that depend on those roads. As the only 
north-south route on the west side of Oregon's coastal 
mountains, it is extremely important that we make every effort 
to relieve that traffic congestion and stoppage.
    This modest request will not build a new highway system, 
but it will significantly alleviate the congestion in Lincoln 
City were U.S. 101 often narrows. The Oregon Department of 
Transportation will use these funds to construct a center turn 
lane to improve that flow dramatically.
    Additionally, I will be supporting transit projects that 
will create jobs and facilitate economic growth in our 
metropolitan areas. Our State has historically been a leader in 
progressive solutions to our Country's transportation network 
issues, particularly in the development and use of light rail 
and streetcar transit operations. Light rail systems in the 
Portland metropolitan area are vital to the continued growth of 
the region.
    By authorizing and appropriating funds for the expansion of 
light rail and streetcar lines in this region, we will build 
upon the investments we have already made in the American 
Recovery and Reinvestment Act. We will immediately be creating 
jobs both in the new construction as well as in the bourgeoning 
long term employment from industries supported by the light 
rail and streetcar systems in metropolitan Portland. Working 
with local transportation authorities to bring light rail lines 
south from Portland to Oregon City and streetcars to Lake 
Oswego will create new trade corridors where the convenience 
and mobility of a well designed public transportation system 
will lead to economic growth and job creation on both sides of 
Willamette River.
    I am giving these projects and others like them high 
priority status because it will provide a demonstrable and 
achievable benefit to the region, both in the short and long 
term. Improving the flow of traffic along the Interstate 5 
corridor and U.S. 101 will facilitate the flow of goods and 
capital. The expansion of clean, efficient, and reliable public 
transportation in the densely populated Portland area will 
facilitate the growth of our economy and provide people with 
the opportunity to find work and steady employment.
    I have considered these priorities very carefully. I ask 
the Committee to fund them and others like them. I thank the 
Committee for hearing me today and considering these requests. 
Thank you very much.
    Ms. Edwards of Maryland. Thank you very much for your 
testimony today Mr. Schrader. I have to say there are many of 
us around the Country who in working in our communities often 
look to what Oregon has done with its transportation system as 
we figure out ours. So I appreciate your testimony this 
afternoon.
    Mr. Schrader. Thank you very much, Madam Chairwoman.
    Ms. Edwards of Maryland. The Committee stands in 
adjournment.
    [Whereupon, at 12:55 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 49496.010
    
    [GRAPHIC] [TIFF OMITTED] 49496.011
    
    [GRAPHIC] [TIFF OMITTED] 49496.012
    
    [GRAPHIC] [TIFF OMITTED] 49496.013
    
    [GRAPHIC] [TIFF OMITTED] 49496.014
    
    [GRAPHIC] [TIFF OMITTED] 49496.015
    
    [GRAPHIC] [TIFF OMITTED] 49496.016
    
    [GRAPHIC] [TIFF OMITTED] 49496.017
    
    [GRAPHIC] [TIFF OMITTED] 49496.018
    
    [GRAPHIC] [TIFF OMITTED] 49496.019
    
    [GRAPHIC] [TIFF OMITTED] 49496.020
    
    [GRAPHIC] [TIFF OMITTED] 49496.021
    
    [GRAPHIC] [TIFF OMITTED] 49496.022
    
    [GRAPHIC] [TIFF OMITTED] 49496.023
    
    [GRAPHIC] [TIFF OMITTED] 49496.024
    
    [GRAPHIC] [TIFF OMITTED] 49496.025
    
    [GRAPHIC] [TIFF OMITTED] 49496.026
    
    [GRAPHIC] [TIFF OMITTED] 49496.027
    
    [GRAPHIC] [TIFF OMITTED] 49496.028
    
    [GRAPHIC] [TIFF OMITTED] 49496.029
    
    [GRAPHIC] [TIFF OMITTED] 49496.030
    
    [GRAPHIC] [TIFF OMITTED] 49496.031
    
    [GRAPHIC] [TIFF OMITTED] 49496.032
    
    [GRAPHIC] [TIFF OMITTED] 49496.033
    
    [GRAPHIC] [TIFF OMITTED] 49496.034
    
    [GRAPHIC] [TIFF OMITTED] 49496.035
    
    [GRAPHIC] [TIFF OMITTED] 49496.036
    
    [GRAPHIC] [TIFF OMITTED] 49496.037
    
    [GRAPHIC] [TIFF OMITTED] 49496.038
    
    [GRAPHIC] [TIFF OMITTED] 49496.039
    
    [GRAPHIC] [TIFF OMITTED] 49496.040
    
    [GRAPHIC] [TIFF OMITTED] 49496.041
    
    [GRAPHIC] [TIFF OMITTED] 49496.042
    
    [GRAPHIC] [TIFF OMITTED] 49496.043
    
    [GRAPHIC] [TIFF OMITTED] 49496.044
    
    [GRAPHIC] [TIFF OMITTED] 49496.045
    
    [GRAPHIC] [TIFF OMITTED] 49496.046
    
    [GRAPHIC] [TIFF OMITTED] 49496.047
    
    [GRAPHIC] [TIFF OMITTED] 49496.048
    
    [GRAPHIC] [TIFF OMITTED] 49496.049
    
    [GRAPHIC] [TIFF OMITTED] 49496.050
    
                                    

</pre></body></html>
